<html>
<title> - NASA BUDGET AND PROGRAMS: OUTSIDE PERSPECTIVES</title>
<body><pre>[Senate Hearing 109-1136]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1136
 
                       NASA BUDGET AND PROGRAMS: 
                          OUTSIDE PERSPECTIVES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
66-784                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98e9986a98a9c9a9d818c8599c78a8684c7">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  BILL NELSON, Florida, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               E. BENJAMIN NELSON, Nebraska
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 7, 2006.....................................     1
Statement of Senator Hutchison...................................     1
Statement of Senator Bill Nelson.................................     2
Statement of Senator Sununu......................................     3

                               Witnesses

Bolden Jr., Charles F., Major General, U.S. Marine Corps 
  (Retired); CEO, JackandPanther, LLC............................    22
    Prepared statement...........................................    24
Pawelczyk, James A., Ph.D., Associate Professor of Physiology, 
  Kinesiology and Medicine, The Pennsylvania State University....     9
    Prepared statement...........................................    11
Torbert, Dr. Roy B., Director, University of New Hampshire Space 
  Science Center.................................................    14
    Prepared statement...........................................    16
Voorhees, Dr. Peter W., Chair, Department of Materials Science 
  and Engineering, Northwestern University.......................     4
    Prepared statement...........................................     6

                                Appendix

Karas, John, Vice President, Space Exploration, Lockheed Martin, 
  prepared statement.............................................    37
Lewis, Mark J., Chief Scientist, U.S. Air Force, prepared 
  statement......................................................    39
Stevens, Hon. Ted, U.S. Senator from Alaska, prepared statement..    37
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Dr. Roy B. Torbert...........................................    43
    Dr. Peter W. Voorhees........................................    44


                       NASA BUDGET AND PROGRAMS: 
                          OUTSIDE PERSPECTIVES

                              ----------                              


                        WEDNESDAY, JUNE 7, 2006

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Good afternoon. We are very pleased that 
you are here. This is a very important session for us. 
Certainly my ranking member, Senator Nelson, and I are very 
focused on this science section of the NASA mission, but I want 
to especially point out that Senator Sununu asked for this 
hearing and asked to make this one of the focuses of this 
subcommittee. So, Senator Sununu, thank you very much for that.
    Senator Sununu. Thank you.
    Senator Hutchison. Last year Congress enacted and the 
President signed the NASA Authorization Act of 2005. This was a 
bill that I co-sponsored with Senator Nelson and others on the 
Committee, and it was the first time in 5 years that Congress 
passed an authorization bill for NASA. It was very important to 
us that there be a legislative foundation, a commitment to 
NASA's mission. That is why we thought that the President's 
vision for exploration should get the Congressional approval 
and we added parts that came from Congress to make it even 
stronger.
    We believe that we have authorized the minimum funding 
levels needed to support the Vision for Exploration and the 
ongoing scientific activities of NASA, including the assembly 
and full utilization of the International Space Station, in a 
way that would avoid disruptions caused by any kind of abrupt 
shift in NASA's focus and goals.
    We know that the NASA budget eventually requested by the 
President is $1.1 billion less than the amount authorized by 
the NASA Authorization Act. While that is not unusual to have 
budget requests that are less than the authorized amounts, this 
is a crucial time for transition. The end result of the 
shortfall in the funding request is a series of painful 
decisions for Michael Griffin, the NASA Administrator, and to 
which, of course, the research community has reacted--and 
rightfully so.
    I am not one who believes that the Federal Government 
should fund all programs just because we have done it in 
previous years. We have to have accountability and adjustments 
to assure that we are making the best use of taxpayer dollars.
    I am convinced, however, that in many cases where 
reductions and cuts have been made in science and research 
programs in NASA, that we are not justifying the mission that 
NASA has for rejuvenating the creativity in our scientific 
community. The underlying value of the things that we have been 
doing on the Space Station and the missions that NASA has had 
in science in the past and the positive impacts of those 
efforts have added to the economic competitive and security 
interests for all of our country. So I refuse to accept that a 
fully and adequately funded space program is something that we 
cannot afford in this Nation.
    Finally, there is a practical reason why the President 
should require that we have realistic funding levels, and that 
is to succeed in the Vision for Exploration. At a time when the 
President is working with Congress on a new competitive 
initiative, which includes doubling the research budget of the 
National Science Foundation, it would be shortsighted to 
squeeze the research budget of NASA and other areas of research 
in the same physical science fields.
    We have invited witnesses here today because I believe that 
we can put our minds together to come up with the funding and 
to keep the focus on science. I believe that our committee is 
absolutely solid on this point. We have invited you because you 
have important opinions on this subject.
    We also believe that sharing resources with other agencies 
of the government who have scientific missions as well could 
better use the expenditures that we can make in research. That 
would mean cooperative NASA scientific activities, along with 
the Department of Defense, DARPA, the Department of Energy, and 
the National Science Foundation.
    In our authorization bill, we did ask those agencies to 
work with NASA to determine where there were duplications or 
where putting money together could come to a better result. 
Finding efficiencies and eliminating duplication, as well as 
sharing resources for common objectives can help alleviate the 
pressure for additional funding for NASA, and this is an area 
that I certainly want to explore.
    So I do thank you. After the statements from our 
colleagues, I will introduce each of the panel members. My 
Ranking Member, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Thank you, Madam Chairman.
    The age-old question, can you have guns and butter in a 
Nation, and a Nation wants to have both, so too it is with this 
little Federal agency NASA. Can you have science and human 
exploration? And the answer is we need both.
    We accommodated for that in the NASA authorization bill 
that we passed last year, but the Office of Management and 
Budget came along and underfunded the NASA budget by $1.1 
billion. So, Senator Sununu, this being a concern of yours, as 
it is of ours, on the cutting of science programs, we can 
alleviate that if we can get the appropriators to fund at the 
authorized level instead of the level that is recommended by 
OMB.
    When you look at a little agency that is less than 1 
percent of the entire Federal budget, you are looking at an 
agency that means so much to the future of the country because 
of its cutting-edge science exploration and inspiration for the 
people. That is not, in this Senator's opinion, an agency that 
you want to go whacking away at its budget.
    Thank you, Madam Chair.
    Senator Hutchison. Thank you.
    Senator Sununu.

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Madam Chair. It is a pleasure to 
be here, and I appreciate all of the effort you have put into 
both the authorization bill and other issues of science that 
have come before the Committee.
    This is an area that has enormous impact not just on the 
particular programs that we might talk about today, but I 
think, as we will hear from the panelists, on focusing the 
attention, providing a platform for future generations of 
scientists as well.
    And to that extent, I am very pleased to welcome, in 
addition to our other panelists, Dr. Roy Torbert who works at 
the University of New Hampshire, who I met probably 8 or 10 
years ago when I was first elected to Congress and became 
familiar with the work that he does at UNH as a professor and a 
director of the Space Science Center there, working with 
graduate students and undergraduate students on a range of 
basic science projects, the very kinds of projects that I think 
would be most impacted by the budget proposals that Senator 
Nelson spoke of. They are the kinds of projects that extend the 
limits of our knowledge in the solar system, the galaxy, and 
the universe that support our future missions within the space 
program, and they are the kinds of efforts that simply cannot 
be done or duplicated anywhere else.
    The private sector does not have an interest in this kind 
of work because it does not have a rate of return, because it 
does not have predictable future cash-flows, even though 10 or 
15 or 20 or 40 years from now someone might say, you know, this 
is actually a technology that was first used on a particular 
Explorer mission. No one can predict that today. No one can 
predict future practical applications or market applications of 
these technologies. No one else would do this work if 
government did not step forward and say we have an interest in 
providing the support for this scientific exploration.
    So I think that is the essence of the concerns shared by 
the members of this subcommittee and I think by our panelists 
as well. Dr. Torbert has really been a great advocate for those 
areas of scientific investigation, but also a good teacher, a 
good administrator of a program that I think is in many ways a 
model for others around the country. So I am pleased to welcome 
Roy and pleased to be here to hear from our other panelists.
    Thank you.
    Senator Hutchison. Well, thank you, Senator Sununu, for 
really making a point of not letting this hearing be delayed.
    I am going to introduce all four of you and then ask you to 
speak in this order. I have no idea why the order is what it 
is. That is above my pay grade, but I am going to read my 
script.
    Dr. Peter Voorhees is the Engelhart Professor and Chair of 
the Department of Materials Science and Engineering at 
Northwestern University. Dr. James Pawelczyk is an associate 
professor at Pennsylvania State University. Dr. Torbert, as has 
been mentioned, is Director of the Space Science Center at the 
University of New Hampshire. General Charles Bolden has the 
distinction of being an astronaut. He was a pilot on the trip 
that was taken by my colleague, Senator Nelson, and Senator 
Nelson asked for you to be a witness today. We are very 
pleased. After you left NASA, you went to the Marine Corps and 
served capably in the Marine Corps before retirement, and you 
have just been inducted into the Astronaut Hall of Fame. So we 
are very pleased that all of you are here.
    I want to mention that there were two specific people we 
asked to be here who could not, but who are submitting for the 
record their testimony. Dr. Mark Lewis, the Chief Scientist of 
the U.S. Air Force. I asked him to talk about the cooperative 
role in aeronautics research that NASA and the Department of 
Defense through the Air Force could utilize. And John Karas, 
the Vice President for Space Exploration of Lockheed Martin 
Space Systems. They will provide written testimony.
    So with that, let me start with you, Dr. Voorhees.

           STATEMENT OF DR. PETER W. VOORHEES, CHAIR,

        DEPARTMENT OF MATERIALS SCIENCE AND ENGINEERING,

                    NORTHWESTERN UNIVERSITY

    Dr. Voorhees. Thank you very much. Chairwoman Hutchison, 
Ranking Member Nelson, and Members of the Committee, thank you 
for inviting me to testify today. My name is Peter Voorhees. I 
am the Frank C. Engelhart Professor and Chair of the Department 
of Materials Science and Engineering at Northwestern 
University. I was a member of the National Research Council 
Space Studies Board and Chair of the Committee of Microgravity 
Research. Through my tenure as Chair, I have become familiar 
with the microgravity program and many of the areas within the 
physical sciences that are at the core of NASA's human 
exploration effort.
    The future of research at NASA is being threatened as never 
before. I believe that a strong physical sciences research 
program is crucial to both capitalizing on NASA's significant 
investment in the area and to enabling the human spaceflight 
program. Only by supporting an ongoing physical sciences 
research program will NASA be able to avoid failures, that 
could have been anticipated by physical sciences research, and 
implement the President's vision for human spaceflight in the 
most cost-effective and rapid fashion.
    The rationale for continuing physical sciences research at 
NASA lies in both the past and the future. Since 1990, NASA has 
been investing significant resources, measured in billions of 
dollars, in developing and maintaining a community of 
researchers in the microgravity sciences area. In 2003, the 
National Research Council study, Assessment of the Directions 
in Microgravity and Physical Sciences Research, found the 
quality of the investigators in the program to be excellent, 
and the research has impacted the fields in which it was a 
part. Ending the physical sciences research program will 
deprive the Nation of important discoveries in fields ranging 
from wetting and spreading dynamics of fluids on surfaces to 
relativity and precision clocks and negatively impact the 
ability to perform high quality research on the International 
Space Station.
    Just as important as this past investment is the profound 
impact that physical sciences research can have on the future 
of NASA's human exploration effort. This is because important 
technology required for space exploration is affected by 
gravitationally related phenomena that are poorly understood. 
This lack of understanding hampers the design of a vast array 
of devices such as those for heat transfer, the prevention and 
detection of fires, fluid handling, and materials repair such 
as brazing and welding, among many others.
    An example of the importance of physical sciences research 
is illustrated by the need to prevent and detect fires in a 
reduced gravity environment. We have had thousands of years of 
experience detecting and fighting fires on Earth. In contrast, 
our experience with combustion phenomena and microgravity or 
partial Earth's gravity is limited to, at most, 50 years. As a 
result, our understanding of flame propagation issues that 
impact spacecraft safety is very limited. It is, thus, not 
surprising that research in this area continues to uncover new 
and unexpected results. Although fires on the spacecraft are an 
unlikely event, if one should occur, it could be catastrophic 
not only for the mission, but for the entire human exploration 
of space effort. Given our lack of understanding of how fires 
behave in reduced gravity environments and the crucial 
importance of this to the human exploration effort, I can think 
of few stronger rationales for a vigorous combustion research 
program.
    There are numerous other examples of the importance of 
physical sciences research in the human exploration of space 
effort as well.
    In order to capitalize on the past investment and to ensure 
a future for the human exploration effort, it is crucial to 
retrain a broad spectrum of physical sciences research at NASA. 
The importance of continuity in a research program cannot be 
overemphasized. Continued support of this community is 
essential in engaging the best researchers, producing the 
students interested in working with NASA upon graduation, and 
performing the ground-breaking research that is essential to 
accomplishing NASA's human spaceflight goals. The level of 
support needed to continue funding a cadre of 250 
investigators, which is the minimum number needed for a viable 
program, is quite modest compared to that formerly invested in 
the Office of Biological and Physical Research. Many 
investigators have recently had their programs terminated. If 
this support is not made available in the very near future, 
these scientists will be reluctant to return to microgravity 
research and the remaining researchers will also likely leave 
the program.
    It is important to realize that funding physical sciences 
research will not diminish in any way NASA's future plans for 
human exploration. Rather, it will be an essential enabler of 
this effort. Finally, continuation of funding will allow NASA 
to reap the benefits of many years of funding high-impact 
research that is focused on gravitationally related phenomena.
    Thank you very much for the opportunity to testify today, 
and I look forward to responding to your questions.
    [The prepared statement of Dr. Voorhees follows:]

   Prepared Statement of Dr. Peter W. Voorhees, Chair, Department of 
       Materials Science and Engineering, Northwestern University

Introduction
    Chairwoman Hutchison, Ranking Member Nelson, and members of the 
Committee, thank you for inviting me to testify today. My name is Peter 
Voorhees. I am the Frank C. Engelhart Professor and Chair of the 
Department of Materials Science and Engineering at Northwestern 
University. I was a member of the National Research Council Space 
Studies Board and Chair of the Committee for Microgravity Research. 
Through my tenure as Chair I have become familiar with the microgravity 
program and many of the areas within the physical sciences that are at 
the core of NASA's human exploration effort.
    I believe that a strong physical sciences research program is 
crucial to both capitalizing on NASA's significant past investment in 
this area and to enabling the human spaceflight program. In 2004 
President Bush provided a clear vision for NASA's human spaceflight 
effort and NASA has fully embraced the goal of returning humans to the 
Moon and eventually sending humans to Mars. However, to accomplish 
these goals research in the physical sciences is necessary to gain a 
more complete understanding of effects of microgravity on a wide range 
of processes as well as develop a variety of technologies to ensure the 
safety and success of these missions. Only by supporting an ongoing 
physical sciences research program will NASA be able to avoid failures 
that could have been anticipated by an ongoing physical sciences 
research program, and to implement the President's vision in the most 
cost-effective and rapid fashion.
The Development of the Physical Sciences Research Program
    The evolution of NASA's physical sciences research program provides 
important lessons for how to formulate a successful research program to 
enable human space exploration. NASA's physical sciences research 
program began as the materials processing in space effort during the 
Skylab era. The program was singularly focused on performing 
experiments in space. As a result, many of the experiments were ill-
conceived and few yielded new insights into the physical phenomena that 
were operative in space or impacted their respective scientific 
communities. In the early 1990s a new paradigm for research was 
initiated in the fluids, materials, combustion and fundamental physics 
research areas. In order to attract the best researchers, a 
concentrated out-reach effort was undertaken and a rigorous peer review 
system was instituted. In addition, a large ground-based research 
program was created that ensured that ideas were refined and scientific 
questions identified that could be answered only through space flight 
experiments. As a result the ``shoot and look'' approach to performing 
experiments during the Skylab era was replaced by carefully conceived 
hypothesis driven experiments. At its peak there were approximately 500 
investigators in the program and it supported 1,700 research students.
    The 2003 National Research Council (NRC) study ``Assessment of the 
Directions in Microgravity and Physical Sciences Research'' found the 
quality of the investigators in the program to be excellent. On the 
basis of an analysis of the citations of the papers published, 
prominence of journals in which the papers appeared, the influence of 
the research on the content of textbooks, documented influence on 
industry and the quality of the investigators in the program, we found 
that the microgravity program has had a significant impact on the 
fields of which it was a part. For example, 37 members of the fluids 
program were fellows of the American Physical Society, the materials 
science program produced some of the most highly cited papers in the 
area of solidification and crystal growth, and the fundamental physics 
program was funding six Nobel laureates. Many billions of dollars were 
invested in creating this successful and influential program.
    NASA should take great pride in the creation of this high quality 
physical sciences research program in the fluids, combustion, materials 
and fundamental physics areas. It evolved into one of the jewels in 
NASA's crown. With the growth in the quality of the program, NASA 
became the primary source of funding for research in areas such as 
crystal growth, low temperature physics, and low Reynolds number and 
interfacial fluid flow, making NASA stewards of these important and 
broad scientific areas.
    In early 2001 it became apparent that the International Space 
Station (ISS) program was facing major cost overruns. These financial 
constraints led to a major reduction in the microgravity research that 
had been planned for the ISS. Many of the experimental facilities that 
were planned were either reduced in size or delayed and the number of 
crew aboard the ISS was cut, making it difficult to perform experiments 
during the construction phase of the project. As a result, flight 
experiments were delayed or effectively canceled. The catastrophic loss 
of the Columbia orbiter in 2003 placed even more severe restrictions on 
the ability to transport samples and experimental equipment to and from 
the ISS.
    The challenges posed by these recent events, the need to retire the 
Shuttle by 2010, as well as develop the Crew Exploration Vehicle have 
placed great pressures on NASA's budget. These financial constraints 
have resulted in a major reduction in the size and scope of the 
physical sciences research program. For example, with breathtaking 
speed and no external input, NASA eliminated the Office of Biological 
and Physical Research, and the Physical Sciences division within the 
office. The number of principal investigators has been reduced to less 
than 100 with still more reductions proposed. NASA's physical sciences 
research effort is on the verge of elimination. FY07 is the last chance 
to keep physical sciences research at NASA alive.
Rationales for Physical Sciences Research at NASA
    The raison d'etre for physical sciences research at NASA lies in 
both the past and future. Since 1990 NASA has been investing 
significant resources, measured in the billions of dollars, in 
developing and maintaining a community of high quality researchers in 
the microgravity sciences arena. The focus of this research is to use 
the microgravity environment to study a broad range of physical 
phenomena. The research spans from the basic to the applied, and will 
continue to impact both the scientific communities, of which the 
research is a part, as well as industry. As a result of the rigorous 
peer review of this research, important discoveries have been made in 
fields ranging from the wetting and spreading dynamics of fluids on 
surfaces to relativity and precision clock experiments. Moreover, many 
of the space flight experiments that flow from this program require the 
unique microgravity environment that is provided by the ISS and thus 
make use of a national asset that has been very costly to create. 
Ending the physical sciences research will squander the investment made 
in building the physical sciences research program and negatively 
impact the ability to perform high quality research on the ISS.
    Just as important as this past investment is the likely impact of 
the physical sciences program on the future of NASA's human exploration 
effort. A vibrant physical sciences research program is the key to 
successfully accomplishing the President's Vision for Space 
Exploration, since important technology required for space exploration 
is controlled by gravitationally related phenomena that are poorly 
understood. This lack of understanding hampers the design of a vast 
array of devices such as those for heat transfer, the prevention and 
detection of fires, fluid handling, controlling the transport and 
movement of Lunar and Martian soils, and materials repair such as 
brazing and welding, among many others. The need for research in these 
areas is discussed in detail in the NRC report ``Microgravity Research 
in Support of Technologies for the Human Exploration and Development of 
Space and Planetary Bodies.'' Given the central importance of these 
areas in fostering the human exploration of space effort, the impact of 
a physical sciences research program on one of NASA's central missions 
could thus be profound. As illustrations, I shall focus on two such 
examples: heat transfer systems and fire prevention and detection.
    Thermal control is critical for spacecraft; excess heat must be 
rejected into space and moved from one section of the craft to another. 
In the past NASA relied on single-phase heat transfer systems, for 
example systems that involve only a liquid to transfer heat. However, 
there are clear advantages of employing systems that involve both a 
liquid and vapor (two phases), such as those used on the Earth. This 
allows one to employ the significant amount of heat required to 
transform a liquid to a vapor or a vapor to a liquid in the heat 
transfer process. This significant heat of vaporization or condensation 
allows the heat to be transferred in a far more efficient manner than 
with a single-phase system. The successful operation of such systems on 
the Earth frequently requires that the less dense vapor sit above the 
more dense liquid which, due to the presence of gravity, occurs 
naturally in a terrestrial environment. However this density driven 
stratification would not be present in space. This is but one of the 
many challenges of using such systems in space. Nevertheless, the 
advantages of using such a system in a spacecraft are significant. 
Given the enhanced efficiency, a multi-phase heat transfer system would 
save considerable space and mass. Heat pipes have also been proposed as 
possible heat transfer devices. These have the advantage of being 
completely passive where the motion of the fluid is driven by the 
surface tension of the liquid, but they also involve evaporation and 
condensation to transfer heat.
    The central reason why heat transfer systems that involve 
multiphase flow are not more commonly used in spacecraft is that the 
dynamics of flow in systems with more than one phase, such as a vapor 
and liquid, in a microgravity or partial Earth's gravity environment 
are not well understood. A ground-based and flight program focused on 
the dynamics of flow in these multiphase systems could provide the 
insights to allow these higher efficiency devices to be used in the 
human spaceflight effort. While there are constraints on the mass and 
space available in the limited-duration environment of the Shuttle or 
ISS, the constraints placed on long-duration flights to Mars or even 
the Moon are even more stringent. Thus, the availability of high 
efficiency heat transfer devices, that occupy less space and have a 
smaller mass than existing devices, would open up much needed space for 
food and water. It is only through research in this area that these 
devices will be embraced by the spacecraft engineering community.
    A second example of the importance of physical sciences research is 
in preventing and detecting fires in a reduced gravity environment. We 
have had thousands of years of experience detecting and fighting fires 
on Earth. In contrast our experience with combustion phenomena in 
microgravity or partial Earth's gravity is limited to at most fifty 
years. As a result, our understanding of the flame propagation issues 
that impact spacecraft safety is very limited, and research in this 
area continues to uncover new and unexpected results. For example, 
flames can spread along surfaces in the opposite direction to that on 
Earth, flames extend over electrical insulation 30 to 50 percent faster 
in microgravity than under normal conditions, and smoldering under 
microgravity conditions is less bright and more difficult to detect 
than on the ground. All of these results were determined from basic 
research conducted in only the past 10 years and have had a documented 
effect on the fire fighting procedures on spacecraft. Given the limited 
number of experiments performed in microgravity and the surprising 
results thus produced, there is much still to be learned.
    Although fires on a spacecraft are an unlikely event, if one should 
occur it could be catastrophic not only for the mission but for the 
entire human exploration of space effort. The absence of any safe 
refuge on a spacecraft, and possibly lunar base, makes detecting and 
preventing small fires essential. Moreover, the design of lunar 
habitats that mitigate the effects of possible fires requires knowledge 
of how fires propagate in structures in partial Earth's gravity. 
Physics based simulation codes exist for fires in Earth-based 
structures, but none exist for micro or partial gravity environments. 
Given our lack of understanding of how fires behave in microgravity 
environments and the critical importance of this to the human 
exploration effort, I can think of few stronger rationales for a 
vigorous combustion research program. Such a program must involve an 
active ground-based program and, due to the long duration of many 
combustion experiments, ready access to the ISS may be required.

Going Forward
    In order to leverage the past investment in physical sciences 
research and to ensure a successful future for the human exploration 
effort, it is crucial that a broad spectrum of physical sciences 
research in NASA be retained. The importance of continuity in a 
research program cannot be overemphasized. Continued support of this 
community is essential in engaging the best researchers, producing the 
students interested in working with NASA upon graduation, and 
performing the ground-breaking research that is essential to 
accomplishing NASA's human spaceflight goals. The level of support 
needed for this continuity is quite modest given that a cadre of 250 
investigators, each of whom requires $130 thousand, would lead to a 
$32.5 million per year program, a very small investment compared to the 
$1 billion of the former Office of Biological and Physical Research. 
This represents the minimum support needed to keep a physical sciences 
research program alive at NASA. Many researchers have recently had 
their programs terminated. If this support is not made available in the 
very near future these scientists will be reluctant to return to 
microgravity research and the remaining researchers will also likely 
leave the program. As a result NASA will find itself in the same 
position as it was in the late 1980s: without an organized and 
influential microgravity research program. Unfortunately, NASA will 
never have the time or the resources to recreate a physical sciences 
research community. Therefore it is absolutely imperative that NASA 
fund physical sciences research at no less than $32.5 million for FY07.
    To avoid many of the pitfalls of the past, it is essential that the 
program involves both ground-based research and spaceflight 
experiments. One of the crucial lessons of the early microgravity 
program is that only through the testing and refinement that is 
possible with ground-based theoretical and experimental research can 
experiments be performed in space that will yield reliable results. It 
is essential that both the ground-based and spaceflight research be 
rigorously-peer reviewed.
    The future of research at NASA is being threatened as never before. 
It is important to realize that funding physical sciences research will 
not diminish in any way NASA's future plans for human exploration. 
Rather it will be an essential enabler in this effort. Finally, 
continuation of the funding will allow NASA to reap the benefits of 
many past years of funding of high impact research that is focused on 
gravitationally related phenomena.
    Thank you very much for the opportunity to testify today. I look 
forward to responding to your questions.

    Senator Hutchison. Thank you very much. That was very good.
    Dr. Pawelczyk.

       STATEMENT OF JAMES A. PAWELCZYK, Ph.D., ASSOCIATE 
    PROFESSOR OF PHYSIOLOGY, KINESIOLOGY AND MEDICINE, THE 
                 PENNSYLVANIA STATE UNIVERSITY

    Dr. Pawelczyk. Madam Chairperson, members of the Committee, 
good afternoon. I thank you for the opportunity to discuss the 
impact of NASA's science cuts on the President's Vision for 
Space Exploration.
    My comments are formulated from diverse perspectives. First 
of all, I am a former astronaut researcher and I flew on the 
Space Shuttle in 1998. Second, I have recently helped evaluate 
NASA's biological research for the Institute of Medicine and 
the National Research Council, as well as assess the progress 
of the National Space Biomedical Research Institute in Houston. 
Finally, I am a life scientist. I am a physiologist at Penn 
State, and my NASA research funded program was recently 
terminated more than a year in advance of our scheduled 
completion date. I am not bitter. Maybe a little.
    The Vision for Space Exploration has caused dramatic change 
at NASA. Research that contributes to exploration goals takes 
precedence over experiments with intrinsic scientific 
importance and impact, and the entity responsible for funding 
such work, the former Office of Biological and Physical 
Research, has been absorbed into the Exploration Systems 
Mission Directorate.
    Now, I agree with Mr. Griffin's view that aligning research 
with exploration goals is a good thing. However, naive or 
wholesale elimination of scientific themes is not. Funding for 
biological and physical research has declined almost 75 percent 
over a 2-year period, and this includes the cancellation of 
virtually all research equipment for the International Space 
Station that supports animals and plants, the elimination of 20 
percent of the funding for external research grants, and the 
premature termination of 84 percent of these grants. 
Approximately 500 life science graduate students in 25 states 
are going to be affected by this.
    Now, on a January interview with the Orlando Sentinel, Mr. 
Griffin was asked about the lessons learned from Challenger and 
Columbia, and he stated the following, ``If you spend much time 
on this stuff and aviation accidents, a common theme is that of 
not listening to the signals the hardware is sending--the test 
results, the flight results, the dissenting opinions of the 
people involved. So a common theme is not listening. And I 
don't mean actively shutting out. I mean being so focused on 
what we're trying to do that we're not aware of what nature is 
telling us.''
    I think those insights are remarkably prophetic, and today 
I find myself before you as one of those dissenters. While I 
share Mr. Griffin's passion for the human exploration of space, 
my goal today is to ensure that you are, in fact, aware of what 
nature is telling us about humans in space.
    Simply put, the biological risks associated with 
exploration class spaceflight are far from being mitigated. 
Musculoskeletal deconditioning remains of paramount concern. 
The rate of osteoporosis in astronauts today equals that of 
patients with spinal cord injury and it exceeds that seen in 
post-menopausal women by a factor of 10 or more.
    Extrapolating from published studies of astronauts and 
cosmonauts, we can offer these preliminary estimates of the 
changes that would occur if humans made a 30-month trip to Mars 
starting today. Every single one of them would lose 15 percent 
of their bone mineral or more, and 80 percent would lose at 
least 25 percent of their bone mineral. More than 40 percent of 
them would lose greater than half of their bone mineral in 
their hip and in their femur, and that would set them up for 
catastrophic fracture. About 20 percent would lose more than a 
quarter of their exercise capacity, and approximately 40 
percent would experience a decline in leg muscle strength of 30 
percent or more. And these changes would occur despite the fact 
that astronauts are using the best countermeasures available 
currently. To my knowledge, no engineer would accept a 
spaceflight system where such degradation is expected, nor 
should it be so for astronauts.
    NASA's Bioastronautics Roadmap is the comprehensive plan to 
document and reduce the biological risks of spaceflight, and in 
2005, NASA's chief medical officer asked the Institute of 
Medicine to evaluate the road map. Despite the alarming data 
that I just described to you, we found a concern for these 
risks varied widely among astronauts, flight surgeons, and mid-
level management. None of the 183 proposed risks mitigation 
strategies have been implemented for spaceflight and 
approximately two-thirds of these strategies were considered to 
be so incompletely developed that they would not be addressed 
further.
    The problem is simply this. Biology has become the non-
science at NASA. The Science Mission Directorate, which is the 
flagship, includes just four focus areas: astrophysics, Earth 
science, heliophysics, and planetary science. Biology does not 
appear at all. The next generations of space life scientists, 
who are the graduate students like my own, perceive a bitter 
lesson that is difficult to assuage. As a result of a shell 
game of agency-wide reorganization, life sciences are not 
recognized, valued, or funded adequately within science 
anymore. So to restore that scientific credibility, I think we 
need a coordinated strategy, and I'll offer you several 
recommendations.
    First, add sufficient funding to the budget both to answer 
the questions essential for the vision and to replace the Space 
Shuttle in a timely fashion.
    Second, articulate a time frame for delivering and 
completing a risk mitigation plan and vet that plan with the 
external scientific community.
    Third, develop a comprehensive plan for conducting research 
on the International Space Station without the Space Shuttle. 
Include in that capability for six people or more and the 
logistics to keep them supplied.
    And finally, establish sufficient oversight to hold NASA 
accountable to these goals.
    Make no mistake about this. In the long term, we are 
retaining and accumulating human risk to spaceflight in order 
to progress with an underfunded Vision for Space Exploration. I 
think we have an ethical obligation to our current and future 
space explorers and to the American public to do better. Given 
sufficient resources, I remain optimistic that NASA can deliver 
the rigorous translational research program that the scientific 
community expects and the American people deserve, and I 
sincerely thank you for your vigilant support of our Nation's 
space program.
    [The prepared statement of Dr. Pawelczyk follows:]

Prepared Statement of James A. Pawelczyk, Ph.D., Associate Professor of 
Physiology, Kinesiology and Medicine, The Pennsylvania State University

        Abstract--At the midpoint between the Apollo program and a 
        human trip to Mars, NASA's recent reductions to scientific 
        funding are unprecedented. In particular, the thoughtfully 
        conceived architecture to explore the Moon, Mars and beyond has 
        produced large reallocations of research funding that 
        jeopardizes the stability and future of space life sciences. 
        Given current budgets, NASA does not appear to have sufficient 
        resources to fully engage the help of the external science 
        community to complete the President's Vision for Space 
        Exploration.

    Madame Chairperson and members of the Committee:
    Good afternoon. I thank you for the opportunity to discuss the 
changes NASA has made to its research funding. I have been a life 
sciences researcher for 20 years, competing successfully for the past 
13 years for grants from NASA. From 1996-1998 I took leave from my 
academic position at The Pennsylvania State University to serve as a 
payload specialist astronaut, or guest researcher, on the STS-90 
Neurolab Spacelab mission, which flew on the Space Shuttle Columbia in 
1998. Since Neurolab I have had the privilege to serve as a member of 
NASA's Research Maximization and Prioritization (ReMAP) Taskforce. More 
recently I helped evaluate NASA's Bioastronautics Research Program for 
the Institute of Medicine, NASA's International Space Station Research 
Plan for the National Research Council, and the progress of the 
National Space Biomedical Research Institute (NSBRI).
    During a January 19, 2006 interview with the Orlando Sentinel, Mr. 
Griffin shared his thoughts about his first 9 months in the position of 
NASA Administrator. When asked about the lessons learned from the 
Challenger and Columbia accidents, he stated the following:

        If you spend much time on this stuff and aviation accidents, a 
        common theme is that of not listening to the signals the 
        hardware is sending--the test results, the flight results, the 
        dissenting opinions of the people involved. So a common theme 
        is not listening. And I don't mean actively shutting out. I 
        mean being so focused on what we're trying to do that we're not 
        aware of what nature is telling us [emphasis added].

    Those insights are remarkably prophetic, and today I find myself 
before you as one of those dissenters. I share Mr. Griffin's passion 
for the human exploration of space, but I must conclude with equal 
conviction that biological adaptation is a serious risk to an extended 
human presence in space, and that the scientific research necessary to 
ensure the health and safety of future astronaut crews beyond low-Earth 
orbit is far from complete.
ReMAP--Antecedent to the Vision for Space Exploration
    For several years, NASA has recognized and responded to its need to 
complete necessary research in a fiscally responsible manner. In the 
spring and summer of 2002 NASA launched the Research Maximization and 
Prioritization Task Force, commonly known as ReMAP. Chaired by Rae 
Silver of Columbia University, the Task Force included two National 
Medal of Science awardees, one Nobel Prize winner, and more than a 
dozen members of the National Academy of Sciences, representing the 
breadth of translational research in the biological and physical 
sciences.
    ReMAP was asked to prioritize 41 areas of research in the former 
Office of Biological and Physical Research. What was unique to ReMAP 
was our challenge to consider both the physical sciences and biological 
sciences simultaneously. This resulted in spirited debate and 
intellectual foment of the highest caliber. When we completed our task, 
highest priority was assigned to 13 areas that informed two broad, 
often overlapping, goals: One is the category of intrinsic scientific 
importance or impact; research that illuminates our place in the 
universe, but cannot be accomplished in a terrestrial environment. The 
other goal values research that enables long-term human exploration of 
space beyond low-Earth orbit, and develops effective countermeasures to 
mitigate the potentially damaging effects of long-term exposure to the 
space environment. It should be no surprise to you that over the past 
17 years other review panels, both internal and external to NASA, have 
named similar goals.
    The Task Force wrestled with the question whether one goal could be 
prioritized over the other. In the history of the United States space 
program both goals have been important, though their relative 
importance has changed over time. The limited amount of biological and 
physical research that occurred during early space exploration, 
particularly the Apollo era, focused on the health and safety of 
astronaut crews in a microgravity environment. Significant research 
questions that did not contribute directly to a successful Moon landing 
received lower priority. In contrast, more regular access to space 
provided by the space shuttle afforded an opportunity for ``basic'' 
research to take higher priority; the proliferation of space based 
research in the physical and biological sciences over the past twenty 
years is a testament to this fact.
    Thus, the relative priority of these two goals of research--
enabling long-term human exploration of space and answering questions 
of intrinsic scientific merit--has shifted during NASA's history. This 
conclusion is critical, as it suggests that one goal can receive higher 
priority over the other, though this ranking may change depending on 
NASA's definition of programmatic needs at a particular point in time.
    When the President announced the Vision for Space Exploration in 
January of 2004, the relative balance between these two categories of 
research changed again. Items in NASA's research portfolio that most 
contributed to exploration goals would take precedence over experiments 
with intrinsic scientific importance and impact, and substantial 
realignment has occurred as a result. At the same time, the Office of 
Biological and Physical Research, the entity responsible for funding 
biological and physical research at NASA, was absorbed into the 
Exploration Systems Mission Directorate.
    I share Mr. Griffin's view that aligning research with exploration 
goals is a good thing. However, naive or wholesale elimination of 
scientific themes is not, and biological and physical research has 
certainly suffered from this effect. To the alarm of the scientific 
community, the process that began with ReMAP has taken a dangerous 
turn. Areas that we rated as highest priority, including those that 
contribute to exploration goals, have been de-scoped or eliminated 
completely.
Where is ``Science'' at NASA Today?
    In many ways, the reorganization of ``science'' at NASA orphaned 
biology, and I encourage caution when you and your colleagues use the 
term in your discussions. Logically, ``science'' would seem an 
appropriate, generic label for research activities that occur 
throughout the agency. However, within NASA it appears to have a more 
specific meaning, often referring exclusively to the activities funded 
by the Science Mission Directorate, which includes the following 
disciplines only:

  <bullet> Astrophysics--the study of matter and energy in outer space.

  <bullet> Earth Science--the study of the origins and structure of our 
        planet.

  <bullet> Heliophysics--the study of planets, interplanetary space, 
        and the sun.

  <bullet> Planetary Science--the study of the origins, structure, and 
        features of planets beyond our own.

    Please note that the term, ``biology,'' or the study of life, does 
not appear at all. To my more skeptical colleagues, the science of 
biology is disappearing at NASA.
    The available evidence provides some support for this conclusion. 
While the Science Mission Directorate has suffered modest cuts, over 
the past 2 years, funding for biological and physical research (i.e., 
science not managed by the Science Mission Directorate) has decreased 
almost 75 percent, from $1,049 million in FY05 to $274 million in the 
FY07 Budget Summit. This includes the cancellation of virtually all 
research equipment for the International Space Station that supports 
animals and plants, the elimination of 20 percent of the funding for 
external research grants, and the premature termination of 84 percent 
of these grants. Approximately 500 life science graduate students in 25 
states will be affected.
    The next generations of space life scientists perceive a bitter 
lesson that is difficult to assuage: as the result of a shell game of 
agency-wide reorganization, life science is no longer recognized or 
valued within NASA.
Biological Research is Essential and Obligatory to the Vision for Space 

        Exploration
    I wholeheartedly endorse the President's goal to return humans to 
the Moon and Mars, but the current reductions in biological research 
funding appear sorely at odds with this goal. Simply put, the 
biological risks associated with exploration-class spaceflight are far 
from being mitigated.
    This conclusion is based on analysis of 30 years of NASA-sponsored 
research. Since the days of Skylab, NASA-funded investigators conducted 
an aggressive and successful biological research program that was 
robust, comprehensive, and internationally recognized. Beginning with 
those early efforts, and continuing with our international partners on 
the Mir and the International Space Station, we have built a knowledge 
base that defines the rate at which humans adapt during spaceflight up 
to six-months duration, with four data points exceeding one-year 
duration.
    Musculoskeletal deconditioning remains a paramount concern. In the 
past 2 years our ability to differentiate the trabecular bone network 
in the hip has helped us to appreciate that the risk to bone during 
spaceflight may be even greater than we previously anticipated. The 
rate of osteoporosis in astronauts equal patients with spinal cord 
injury, and exceeds that seen in post-menopausal women by a factor of 
10 or more. Extrapolating from published studies of astronauts and 
cosmonauts spending up to 6 months in low-Earth orbit, we can offer 
preliminary estimates of the changes that would occur if humans made a 
30-month trip to Mars today:

  <bullet> 100 percent of crew members would lose more than 15 percent 
        of their bone mineral in the femur and hip.

  <bullet> Approximately 80 percent would lose more than 25 percent of 
        their bone mineral.

  <bullet> More than 40 percent would lose greater than 50 percent of 
        their bone mineral.

  <bullet> Approximately 20 percent would lose more than 25 percent of 
        their exercise capacity.

  <bullet> Approximately 40 percent would experience a decline in leg 
        muscle strength of 30 percent or more.

    Each of these predictions takes into account the fact that 
astronauts would be using the best countermeasures available currently! 
To my knowledge, no engineer would accept a spaceflight system where 
such degradation is expected. Nor should it be so for astronauts.
What is the Status of NASA's Human Biological Risk Mitigation Plan?
    In 2005 NASA's Chief Medical Officer asked the Institute of 
Medicine to evaluate NASA's Bioastronautics Roadmap, the comprehensive 
plan to document and reduce the biological risks to human spaceflight. 
Despite the alarming data I just described to you, we found that 
concern for these risks varied widely among astronauts, flight 
surgeons, and mid-level management. None of the 183 proposed risk 
mitigation strategies had been implemented for spaceflight, and 
approximately two-thirds of these strategies were considered to be so 
incompletely developed that they would not be addressed further.
    In his 2001 book, Enlightened Experimentation: The New Imperative 
for Innovation, Harvard Business professor Stefan Thomke offered the 
following four rules for enlightened experimentation: organize for 
rapid experimentation; fail early and often, but avoid mistakes; 
anticipate and exploit early information; and combine new and old 
technologies. While these principles are recognizable in NASA's 
Constellation System architecture, they are wholly absent in the 
implementation of NASA's Bioastronautics Roadmap.
    We desperately need to increase human capabilities in space by 
translating findings from cell culture to reference organisms and 
mammalian models such as mice and rats to future flight crews. 
Translational research is the ``gold standard'' of the NIH, and it is 
what the research community, and the American people, should expect 
from the International Space Station. We need the capability to house 
and test model organisms on the ISS. But equally important, we need 
adequate time for crew to prepare and conduct these experiments, and 
that time can be found only when the ISS moves beyond the core complete 
configuration. The potential return is immense; the application of this 
research to our aging public could become one of the most important 
justifications for an extended human presence in space.
Challenges for the Future
    Earlier this year, Congress received The National Research 
Council's review of NASA's plans for the International Space Station, 
which identified several serious concerns about NASA's prioritization 
process for current and planned life and physical sciences research.
    First, allocations to research did not appear to be based on risk, 
but convenience. Second, little emphasis was given to future lunar or 
Martian outposts, opting instead for short stays on the Moon. Third, 
the current ISS payload and the processes used to prioritize research 
areas appeared to be neither aligned with exploration mission needs nor 
sufficiently refined to evaluate individual experiments. Finally, no 
process was in place to plan or integrate future research needs that 
may not be recognized currently.
    To restore scientific credibility at NASA, a coordinated strategy 
is necessary. I offer several recommendations for your consideration:

  <bullet> First, add sufficient funding to NASA's budget, both to 
        answer the questions essential to the Vision for Space 
        Exploration and to replace the Space Shuttle in a timely 
        fashion. An addition of $150 million would restore biological 
        funding to the level of the President's FY06 budget request, 
        but a minimal biological research program, directed primarily 
        to external investigators, could be conducted with the addition 
        of approximately $50 million/year.

  <bullet> Second, articulate a time frame for delivering and 
        completing a risk mitigation plan for humans exploring the Moon 
        and Mars, and vet both the plan and the time frame with the 
        external scientific community.

  <bullet> Third, develop a comprehensive plan for conducting research 
        on board the International Space Station without the space 
        shuttle, including addition of essential equipment for animal 
        research, deployment of a crew of at least six people, and 
        logistics that are sufficient to keep these crews safe and 
        supplied.

  <bullet> Finally, establish sufficient oversight to hold NASA 
        accountable to these goals.

    Madame Chairperson, members of the Committee, make no mistake about 
this: in the long-term, we are retaining and accumulating human risk to 
spaceflight in order to progress with an under-funded Vision for Space 
Exploration. We have an ethical obligation to our current and future 
space explorers, and to the American public, to do better. Given 
sufficient resources, I remain optimistic that NASA can deliver the 
rigorous translational research program that the scientific community 
expects, and the American people deserve. I sincerely thank you for 
your vigilant support of the Nation's space program, and the 
opportunity to appear before you today.

    Senator Hutchison. Thank you very much.
    Dr. Torbert.

          STATEMENT OF DR. ROY B. TORBERT, DIRECTOR, 
        UNIVERSITY OF NEW HAMPSHIRE SPACE SCIENCE CENTER

    Dr. Torbert. Madam Chair, Senator Sununu, Senator Nelson, I 
also want to thank you today for the opportunity to address 
important issues about NASA science. My name is Roy Torbert. I 
am a professor of physics at the University of New Hampshire 
and the Director of the Space Science Center, which 
participates in all the divisions of NASA science. I am now a 
lead investigator in a strategic mission for the Heliophysics 
Division: the Magnetospheric MultiScale Mission, or MMS. I have 
served as Dean of the College of Engineering and Physical 
Sciences, where the future of a technical workforce was my 
daily concern. I also serve on the NASA Advisory Council 
Science Subcommittee for Heliophysics, although I do not speak 
for them today.
    First, I would like to commend the American people, and you 
as their representatives, for their significant investment in 
NASA science. The United States has benefited a great deal from 
this investment. Not only is our technological base 
strengthened, but our competitiveness in the world and our 
educational investment in the future are greatly enhanced by 
NASA science leadership.
    However, there is justifiable concern in the space science 
community today about future NASA funding. The Administrator 
has been forced to reduce the run-out for the Science Mission 
Directorate by some $3.1 billion to accommodate the 
requirements of the shuttle, the station, and the new Crew 
Exploration Vehicle, and even before the Fiscal Year 2007 
budget proposals, NASA science had suffered a reduction. The 
request for the SMD in Fiscal Year 2007 is now less in real 
dollars than was appropriated in Fiscal Year 2004.
    I make two points. First, the present budget has some 
significant impacts on NASA's ability to carry out its 
scientific program. And second, there are structural problems 
that drive up the cost of major science missions that are 
compounding our problem. Both of these conditions are severely 
limiting the frequency and variety of future NASA science 
missions.
    Second, the immediate impacts. The NRC report, An 
Assessment of Balance in NASA's Science Programs, shows that 
many of NASA's programs have suffered even more than the 
overall budget numbers would imply. The Solar Terrestrial 
Probe, for example, within SMD now operates with about 75 
percent of the funding that it had in 2004. As a result, the 
original 2010 launch of my program MMS has now slipped to 2013, 
and we find it very hard to recruit new students and engineers 
for a program whose launch date recedes faster than real time.
    The NASA strategic planning process is stretching out the 
missing sequences of programs like Solar Terrestrial Probes by 
many years, but in doing so, the ability of key missions, 
STEREO, MMS, and the key ionospheric mission, GEC, to support 
each other have been compromised. In particular, the GEC 
mission has been deferred ``indefinitely'' beyond 2015. 
Indefinite postponement certainly forces many scientists to 
question the viability of their fields in the future.
    In dealing with these impacts, NASA will preserve its 
strategic missions. The science community is worried about the 
extraordinary reductions in the smaller opportunities that form 
the basis for student involvement, and these include the 
Explorer, Discovery, and the Earth Pathfinders. They provide 
exciting science missions for a modest investment where 
students first learn the space science and engineering trade.
    But the Explorer program has been cut back by half. There 
have been no Explorer AO's since 2003 and none expected for 
2008. The Low Cost Access to Space program launch rate has been 
cut back by half. This year, in fact, it did not accept any 
remote launch site proposals. Even regular sites like the 
launch sites like Poker Flat are in danger by 2009. And the 
sustaining research and analysis budget has been cut back by 15 
percent.
    The NASA advisory subcommittees are now concerned about two 
findings of the NRC Balance report. I should mention that the 
first finding we accept, that NASA really is being required to 
do too much with too little at the present time. First, the 
balance between large and small missions is no longer optimal, 
and the cost to complete space and Earth science missions 
really needs to be scrutinized.
    Why is it that the costs of major NASA and other space 
agency missions have grown far faster than technical inflation?
    Most importantly, we simply do not have enough highly 
trained citizens to sustain our technical economy as the 
Gathering Storm report has made very clear. The retirement of 
baby boomers at NASA calls into question how we can sustain the 
Vision for Exploration over the long haul. I submit to you that 
the NASA science programs are a critical source of this needed 
native talent.
    Two other factors are in my written testimony, the 
management of risk and the full cost accounting procedures at 
NASA.
    NASA is a mission agency with exciting goals to accomplish, 
but it needs a sound technical basis, which is provided by the 
proper mix of supporting research and focused development. NASA 
should preserve programs that help train the next generation of 
space scientists and engineers. NASA should restore the 
vitality of the Explorer, Low Cost Access to Space, and the 
research and analysis programs, and we would like to ask the 
Congress, in considering the budget level for NASA as a whole, 
to give high priority to restoring funding for the space 
science enterprise as a whole.
    Thank you.
    [The prepared statement of Dr. Torbert follows:]

          Prepared Statement of Dr. Roy B. Torbert, Director, 
            University of New Hampshire Space Science Center

Introduction
    Madame Chair, Senator Sununu, Senators, I want to thank you for the 
opportunity today to address important issues that face the NASA 
science enterprise. My name is Roy Torbert. I am a professor of physics 
at the University of New Hampshire, and I represent the University as 
Director of the Space Science Center within the Institute for the Study 
of Earth, Oceans and Space. The Institute has 56 faculty who 
participate in nearly every division of the NASA science effort, as 
well as theoretical and ground activities supported by other state and 
Federal agencies, including NSF, NOAA, DOE, and DOD. The Institute 
presently supports 30 engineers, 57 graduate students, and over 70 
undergraduates. I myself have served as principal investigator on 
several scientific instruments for NASA and am now a lead investigator 
in an upcoming strategic mission for the Heliophysics Division: the 
Magnetospheric MultiScale Mission, or MMS. I have also served the 
University as Dean of the College of Engineering and Physical Sciences, 
where the future of a technical workforce, an issue to which I will 
return, was a daily concern. Presently, I also serve on the NASA 
Advisory Council Science Subcommittee for Heliophysics. Although this 
committee has just been constituted and I cannot speak for the 
committee, I will address some of the issues that the committee has 
begun to consider.
    First, and most importantly, I would like to commend the American 
people, and you as their representatives, for their significant 
investment in NASA science. Scientists like me know how difficult it 
has become to find funding for the many worthy causes that come before 
you, and we deeply appreciate your continued support. It is a signature 
achievement of our Nation that it finds the means and the will to look 
beyond the pressures of everyday concerns, to lift our horizons to 
explore questions about our place in the universe, our relations to our 
Sun and nearby planets, and how the Earth and its environment have 
functioned in the past and how they may fare in the future.
    Of course, I also believe that the United States has benefited a 
great deal from this investment: not only is the technological base of 
our country strengthened by NASA innovations, but our prestige and 
competitiveness in the world and our educational investment in the 
future technical workforce are greatly enhanced by NASA science 
leadership.

The Space Science Budgetary Challenge
    However, there is considerable anxiety in the space science 
community today about the future of science funding within NASA. In 
short, the Administrator has been forced to reduce the 5-year run out 
of the Science Mission Directorate (SMD) by some $ 3.1 billion to 
accommodate the requirements of returning the shuttle to flight status, 
to service the ISS, and to develop a new Crew Exploration Vehicle for 
service by 2014. The funding for SMD will therefore grow at only 1 
percent real dollars over this period, and long-planned projects are 
being stretched out beyond the retirement age of many active scientists 
in the field. Even before these budgets were proposed for FY07, NASA 
science programs had sustained a reduction in scope. When the Vision 
for Exploration was first proposed in 2004, the SMD budget was $ 5.5 
billion and projected to grow to $7 billion in FY08. The request for 
SMD in FY07 before you is now $5.33 billion, which is less in real 
dollars than was appropriated in 2004.
    In this testimony, I would like to lay before you two main points. 
First, the present budget has some significant impacts on the ability 
of NASA to carry out its planned scientific program; and second, there 
are structural problems, namely, workforce issues, risk management 
approaches, and full-cost accounting mechanisms, that, by driving up 
the costs of major science missions, make these impacts even more 
severe. Both of these conditions are combining to severely limit the 
frequency and variety of science opportunities in the near future. 
First, let us consider the immediate impacts to our space science 
program.

Immediate Impacts in the Basic Space Science Mission
    The budget numbers above would certainly require that NASA limit 
its plans for science. Some programs have suffered even more than these 
numbers imply. As an example, the Solar Terrestrial Probe line, within 
SMD, which supports the upcoming STEREO solar mission, and which will 
support MMS, now operates with about 75 percent of the funding 
projected in 2004. As a result, the 2010 launch date announced in 2004 
for MMS has now slipped to 2013. It is very hard to recruit new 
students and engineers for a program whose launch date recedes faster 
than real time! As detailed in a recent, thorough report of the 
National Academy, entitled ``An Assessment of Balance in NASA's Science 
Programs,'' many of the programs within other divisions, both within 
SMD and also within the Exploration Systems Mission Directorate (ESMD), 
such as microgravity life and physical sciences, have suffered even 
more severe reductions.
    The science community, through the NASA strategic planning process, 
has been attempting to deal with these reductions in an orderly manner, 
by stretching out the development and launch plans when possible. Below 
are timelines for one such example of the Solar Terrestrial Probes, as 
extracted from the ``2005-2035 Roadmap for Heliophysics'' from the SMD 
roadmapping effort. The original sequence of missions in 2003, as 
diagrammed in the top panel, was thought to contain sufficient overlap 
in development so that complementary fields within the Heliophysics 
division of SMD, such as solar physics (STEREO mission), magnetospheric 
physics (MMS), and ionospheric physics (Geospace Electrodynamics 
Connections, GEC) could each contribute to the division goals of 
understanding the structure and dynamics of our solar system, its basic 
physical principles, and how the Sun influences the space and 
atmospheric environment around the Earth. The 2005 roadmap accepted the 
new budget realities, as outlined in the bottom panel, but now key 
missions have been stretched out. In particular, the GEC mission, which 
is the backbone of NASA research into ionospheric physics, has been 
deferred ``indefinitely, beyond 2015.'' ``Indefinite postponement,'' as 
a development timeline, certainly forces many scientists in the NASA 
enterprise to question the viability of their fields in the future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I must point out that these schedule realignments, as painful as 
they are, resulted from budget reductions prior to those proposed for 
2007. The new actions forced on the Administrator, as outlined above, 
are just beginning to have their impact. It is appropriate that NASA, 
as primarily a mission agency, will adjust major mission schedules to 
preserve, as much as possible, its strategic vision.
    What is causing considerable anxiety in the science community is 
the anticipated and extraordinary reductions in the smaller mission 
opportunities and sustaining research programs that form the support 
for much of the university-based research where students are involved. 
Small missions, such as those in the Explorer, Discovery, and Earth 
System Science Pathfinders programs, provide projects where new 
concepts are tested for a modest investment and where students first 
learn the space science and engineering trade.
    This is particularly true of the Low Cost Access to Space (LCAS) 
effort that provides sounding rockets, balloons, and aircraft flight 
opportunities in a time line that falls within the educational program 
of a graduate student. Since 2000, the historical launch rate has 
dropped in half (from about 30 to 15 missions per year), with 
anticipated further reductions as a result of the 2006 budget. This 
year, NASA would not accept proposals for remote launch sites for 
sounding rockets, a critical capability for this program which often 
requires that the scientist and student teams launch their payloads 
directly into the specific region of space under study. The present run 
out budget places even the regular launch facilities, such as those at 
Poker Flat in Alaska, in danger by 2009.

The Explorer Program Is at Risk
    The Explorer program (see http://explorers.gsfc.nasa.gov/) is 
another prime example of these impacts. Explorers are the original 
science missions of NASA, dating back to the very first satellite, 
Explorer I. They are universally recognized as the most successful 
science projects at NASA, providing insights into both the remotest 
part of our universe and the detailed dynamics of our local ionosphere. 
The Advanced Composition Explorer (ACE) now stands as our only sentinel 
to measure, in-situ, large mass ejections from the sun and the 
energetic particles that are a danger to humans in space. TRACE and 
RHESSI, study the dynamics of the solar surface where large solar 
storms originate, storms that often threaten satellites and other 
technological assets that we depend upon. Another Explorer, the 
Wilkinson Microwave Anisotropy Probe, continues to provide startling 
insights into the early structure of the Big Bang. Explorers are among 
the most competitive solicitations in NASA science, and offer 
opportunities for all comers to propose new and exciting ideas that are 
selected on the basis of science content, relation to overall NASA 
strategic goals, and feasibility of execution. The figure below details 
the budgetary prospects for Explorers. The FY07 proposed run out for 
Explorers will mean a program that is reduced by over half from its 
proposed FY04 guidelines.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the 1990s, the Explorer program size mix was adjusted downward 
from the original ``full Explorer'' class to smaller satellites, 
labeled Medium-Explorers (MIDEX) and Small Explorers (SMEX). This was 
done to enhance the rate of new missions, in the face of limited 
funding and the cost growth of Explorers, a growth which had followed 
that of missions in general, an issue to which I will return. Even 
smaller, so-called ``University Explorers'' or UNEX, were also proposed 
but abandoned. For a number of years, this strategy allowed an 
Announcement of Opportunity (AO) every year, for either a single MIDEX 
or two SMEX class satellites. There has not been a single AO for 
Explorers since 2003 and the next possible opportunity is now 2008. 
That means there will be a 5-year gap in Explorer launches after the 
upcoming IBEX launch in 2008. Many university institutions have 
concluded that the years and dollars of up-front investment, necessary 
to put forward a successful proposal for the Explorer Program, can no 
longer be justified in the face of such limited prospects.
    I would encourage the Congress to work with NASA to restore the 
vitality of both the Explorer and LCAS programs.

Concerns About the Research and Analysis (R&A) Budgets
    A specific concern to university-based scientists is the impact on 
the sustaining Research and Analysis (R&A) budgets. The R&A program 
initiates many of the new, small scientific avenues that eventually 
lead to the major mission concepts that NASA pursues. They are highly 
competitive, maximize the science investment of on-going missions by 
allowing all scientists to use available data, and are heavily weighted 
toward student and young faculty participation. These are moderate-term 
efforts, usually lasting three to four years, where new research and 
particularly theoretical approaches are explored. The Administrator has 
been forced by his budget realities to propose an immediate reduction 
of 15 percent in these programs. That may not seem catastrophic at 
first sight, but a sudden reduction in any long term program can have 
large effects. Because in any given year, approximately two thirds of 
the budget is already committed, next year the budget available for new 
grants must be reduced accordingly by 50 percent, on average. In some 
programs, it has been announced that it will be as much as 80 percent. 
If the budget were allowed to inflate, this rate would slowly recover 
in the next few years, but, with the present budget prospects, there is 
skepticism about its future. There is universal acceptance that these 
realities will inevitably reduce the number of new students who enter 
university programs like mine.
    I have emphasized the budget impacts to programs with which I am 
associated, but nearly all science programs, both within SMD and 
Exploration Systems, are similarly affected, in some cases even more 
so. For example, the Earth Science division depends to a larger extent 
on the R&A program, and is therefore more severely reduced. The newly 
constituted NASA science advisory subcommittees will be forced to re-
align strategic plans to available budgets and are beginning to study 
how the recently completed Roadmaps and the NRC Decadal Study plan can 
best be executed. Of particular concern are two findings of the above-
mentioned NRC ``Assessment of Balance'' report (finding #'s 2 and 4): 
that the balance between large and small missions within NASA science 
activities is not optimal, and that the cost-to-complete of space and 
Earth science missions should be scrutinized. As shown here, much of 
the mission stretch-out in programs like STP and Explorers occurred 
even before the recent FY07 budget proposal, when the NASA Science 
Enterprise as a whole enjoyed budgets that were kept at least even with 
inflation, and sometimes even better. How much worse will it be if SMD 
must live with a declining inflation-adjusted budget?
    I would encourage the Congress to augment the small mission and R&A 
effort in the NASA science budget.
What Are Factors Increasing the Costs of NASA Missions?
    Why is it that the costs of the major NASA and other space agency 
missions have grown far faster than inflation? Or even technical 
inflation? I will offer three possible reasons, that all probably 
contribute, and some recommendations to address these problems.
    First, it is clear that nearly all space projects require a great 
deal of technical competence, and a correspondingly competent 
workforce. There has been a steady erosion of that workforce, not only 
at NASA but across the entire country, and this fact has been decried 
from many quarters. The NRC report, ``Rising Above the Gathering 
Storm,'' makes this case most energetically. Other technical industries 
have been able to compensate somewhat by tapping the pool of highly-
trained immigrants and foreign students, and often outsource work 
abroad. As spacecraft are ITAR sensitive items, this pool is not 
available to NASA or to its outside space-enterprise partners, even to 
us at universities, because of the constraints of the law. All the 
space programs at NASA, DOE, NOAA, and the DOD feel this shortage 
acutely. And the situation will shortly be worse. NASA recently 
commissioned the NRC to study how the workforce necessary to carry out 
the Vision for Exploration can possibly be maintained, given the 
impending retirement of much technical talent with the baby boomers. I 
was invited to participate in that study where it became clear that the 
real shortage lies in the lack of engineers and scientists who had 
actually built, hands-on, space hardware and know how the hardware can 
be integrated and function within larger, more complex systems. I 
submit to you that the NASA science programs are a critical source of 
this needed native talent, whether they remain in NASA science programs 
or move out into the larger industrial base. Education at its very best 
is a process of discovery, of trial-and-error, and the efficacy of 
learning-by-doing has been proven over many years. NASA science is a 
natural partner for universities by providing a wide-array of 
opportunities for student participation where a mistake does not lead 
to a catastrophic loss of life or operational mission capability. I 
recently read a sobering article in Newsweek about students at MIT who 
opted out of the technical curriculum. They often cited a lack of 
excitement that could sustain them through a grueling educational 
program: it just wasn't ``cool.'' For many, many students, NASA science 
provides the ``coolness'' factor. From robots on Mars, to solar storms, 
to questions about the origin of the Universe, NASA science is an 
exciting enterprise. In this light and in view of the key role of NASA 
science in the ``Gathering Storm'' report, it is unfortunate that NASA 
is not a component of the President's new ``American Competitiveness 
Initiative.'' It is particularly discouraging that, at the critical 
moment when NASA science programs are needed most urgently by our 
educational institutions, we are forced to consider how to down-size 
their participation.
    NASA needs to maintain its investment in space science programs 
that allow universities to attract and engage undergraduate and 
graduate students in all aspects of mission development and 
deployment--from proof of concepts studies, to proposal submittal, to 
prototype development, to launch, data analysis, and publication. 
Whether these programs have short or long time horizons, there are ways 
to allow the next generation of space scientists to participate in all 
aspects of an exciting NASA mission.
    A second factor in the cost of science projects is the management 
of risk. Since the first Explorer I, NASA science projects have been 
extraordinarily successful. But over the years, the management 
procedures and quality assurance burden for science projects has grown 
to an almost unsustainable level, and has been driven to be 
commensurate more with manned missions, without any quantifiable impact 
in actually improving the final reliability of science missions, as far 
as many scientists can discern. I think the American people accept that 
the space business is risky, especially during launch and re-entry. 
Administrator Griffin has observed that, since 2 percent of these 
launches never achieve orbit, it makes no sense to spend hundreds of 
millions of dollars on procedures that might improve the reliability of 
payloads far beyond that, and I emphasize there is debate whether we 
are actually achieving more reliability. We have all learned that 
unnecessary risk in manned space programs has tragic consequences and 
clearly more must be done to minimize that risk. It is equally true 
that not taking risks in leading-edge science projects has undesirable 
results: not only must science continue to push the technological 
envelope where failure is a risk that accompanies new ideas, but these 
projects provide opportunities for training staff and students in an 
environment where failure is not life-threatening, where a student can 
gain hands-on experience in the real work of building state-of-the-art 
instrumentation, and, having gained this expertise, these students can 
go on to form the workforce of future operational and manned missions.
    Now, no scientist likes the idea of failure. Not only are 
increasingly precious resources lost, and explanations to committees 
such as yours required, but even more importantly, many valuable years 
of all our team members, especially students, and even whole careers, 
are put at risk. With my university team, I have watched fifteen years 
of hard work vanish in the first few seconds of launch; in this case, a 
European launch. I can tell you that the silence that followed was 
agonizing. But that team picked itself up, worked with both NASA and 
ESA to rebuild those four satellites, and today this mission is on-
orbit and returning remarkable results. Exploration, in its very 
nature, engages adversity, and it is the manner in which we overcome it 
that defines us as a nation.
    I note that NASA SMD is presently undertaking a top-to-bottom 
review of the risk categories of its missions, and the processes that 
are appropriate for each class of mission. In that review, it is 
important that the ``one-NASA'' approach still allow a clear 
differentiation of different levels of missions, from manned shuttles 
and CEV's to very inexpensive sounding rockets. The scientific 
community applauds this effort, and wishes to work with the NASA 
centers to fashion procedures and processes that are appropriate to 
each of these levels, and that can be both cost effective and 
successful.
    Third, and finally, there are some issues of accounting for costs 
that, quite frankly, are mystifying to the science community. NASA 
science centers have recently moved to a new accounting system, so-
called Full Cost Accounting, which, on the surface, is a step forward, 
in that missions must account for all the costs associated with their 
full execution. Previously, there were center-based budgets, where the 
costs of maintaining needed expertise were carried in different 
accounts than the missions themselves. If these budgets were re-
distributed to the mission budgets which then paid the costs, we would 
achieve more budget transparency. But, we cannot see where this 
distribution has been done. Furthermore, there is an inherent risk in 
this approach when the number of missions decreases, as seems to be the 
present case. If there is a certain amount of funding required to 
maintain center expertise, then a smaller number of missions must show 
higher required levels of funding to bear the fixed base costs, and 
therefore fewer missions and so on. The LCAS program stands in 
particular danger from this dilemma as the launch rate slowly dwindles. 
Taken to its ridiculous limit, pretty soon you have one single very 
expensive mission.

Summary
    What is it that the science community is asking of NASA and this 
Congress? Through some serious work of the Advisory committees, we will 
be examining with NASA the balance of large and small programs. We 
realize that NASA is first-and-foremost a mission agency with exciting 
goals to accomplish. But these goals and missions cannot be 
accomplished without a sound technical and scientific basis which is 
provided by the proper mix of supporting research and focused 
development. We will be asking NASA to consider programs that help 
educate and train the next generation of space scientists and 
engineers. We will be asking NASA to evaluate the proper level of risk 
for science missions to allow science multiple opportunities to provide 
the technical progress and student training so that future manned and 
un-manned major missions can be reliably and affordably carried out. We 
would like to examine how the new center financial systems can be 
structured to provide faithful cost accounting in a manner that does 
not improperly burden science missions. And, we would ask the Congress, 
in considering the budget level for NASA, to give high priority to 
restoring funding for the science enterprise as a whole.
    I thank you for this opportunity to discuss the budget implications 
for the NASA science program, one of our Nation's precious assets that 
we all want to nurture to an ever more inspiring and productive future.

    Senator Hutchison. Thank you, Dr. Torbert.
    General Bolden.

STATEMENT OF CHARLES F. BOLDEN, JR., MAJOR GENERAL, U.S. MARINE 
           CORPS (RETIRED); CEO, JackandPanther, LLC

    Mr. Bolden. Madam Chairman, Senator Nelson, Senator Sununu, 
I am honored to be afforded the opportunity to address you this 
afternoon on the very critical issue of budget and programs for 
the National Aeronautics and Space Administration.
    As you have already mentioned, Madam Chairman, on my first 
flight, it was my honor to serve as a crew mate with a member 
of this subcommittee, Senator Bill Nelson, an experience that 
established a bond of friendship with him and his family, 
Grace, Nan Ellen, and Billy, that my family and I cherish to 
this day. Between my third and fourth flights on the Shuttle, I 
served as the Assistant Deputy Administrator of NASA here in 
Washington under then NASA Administrator Dan Goldin. My primary 
responsibilities involved spearheading a review of NASA's 
budget and its primary programs and projects and formulation of 
recommendations for program restructuring to fit within the 
budget constraints established by the Administration and the 
Congress of the United States. I left the space agency and 
active involvement in our space program in June 1994, so I feel 
that it is appropriate that I be classified as an outsider in 
offering my perspectives on the issues before this 
subcommittee.
    NASA today finds itself faced with challenges of redefining 
and reorganizing in order to support and carry out the 
President's Space Exploration Initiative and enable us to 
maintain our scientific and technological leadership in the 
world while we progress in a timely manner in our efforts to 
return humans to the lunar surface and on to Mars. At this 
time, some of us are beginning to understand fully the 
statement credited to the late Dr. Bob Gilruth, who was 
Director of the Johnson Space Center in what may be called the 
golden age of human spaceflight, when he said ``People will 
realize how difficult it was to go to the Moon when we try to 
return.''
    While we have a pretty good grasp on the technology to 
accomplish this mission, I am not certain we have the national 
will or determination to do it. I do not mean to insult 
anyone's intelligence here today, but I do wish to remind all 
of us that exploration of any sort is risky, expensive, and 
unpredictable. While we may be able to continue many of the 
science and exploration programs on which we have been embarked 
over the past 40-plus years, we cannot do them on the cheap and 
we cannot do them in series. Human exploration and science 
experimentation and research are necessarily parallel endeavors 
that are mutually supportive if we are to realize success in 
either.
    From my perspective, you in the Congress and the President 
must see your way to expanding funding for NASA by some 
marginal amount that would enable Dr. Griffin to retain 
emphasis on many of the science and aeronautics programs that 
are being reduced or cut. As an example, building a vehicle or 
set of vehicles to take humans to the Moon and on to Mars, 
without continued emphasis on the life science research to 
understand more fully the environmental and human factors 
challenges that must be overcome to successfully allow humans 
to survive these journeys, is a certain recipe for disaster and 
ultimate failure.
    Similarly, funding increased science exploration and 
experimentation through employment of robotic vehicles and 
remote sensing and satellite data-gathering, without continued 
improvement in our ability to safely send humans beyond Earth's 
bounds and on to other heavenly bodies, literally defeats our 
innate human drive and curiosity to explore the unknown and 
venture from this planet in search of ways to improve our lives 
here at home. In the very simplistic and perhaps somewhat naive 
words scribbled on a rough space exploration drawing by a young 
third grader in 1992, Samantha Aignier, ``You'll never know 
unless you go.'' I think you all have a copy of Samantha's 
picture that I keep on my wall to remind me.
    Perhaps the greatest casualty of NASA's failure to 
adequately fund a balanced program of human exploration and 
science and aeronautics research will be the continued 
deterioration in interest in science and math among our 
elementary and secondary school students, not to mention the 
college and post-graduate students who see no value in pursuing 
the fields of science and engineering where each year brings 
less and less funding for research to the university campuses. 
Where once students in elementary school responded with 
enthusiasm in large numbers that they wanted to be astronauts 
when they grow up, most no longer hold this aspiration when I 
visit the campuses around the United States to talk about my 
exploits as a test pilot and an astronaut. Many of today's 
students do not even know that we still have Americans in space 
every single day on the International Space Station. They want 
to know when we are going back into space and when are we going 
to the moon and on to Mars.
    A closing thought on what I believe continues to be one of 
the greatest benefits of human space exploration, the 
incredible opportunity for international engagement and 
cooperation in a common goal. I feel that a primary reason that 
Russia exists today in relative peace and prosperity is due to 
the continued support and cooperation we gave to them from the 
days of the Apollo-Soyuz test project in 1975 through the fall 
of the Soviet Union, continuing on to today. We have an 
opportunity to forge the same kind of alliance with the people 
of China by fully welcoming them into the family of space-
faring nations and opening opportunities to them to join with 
us in the peaceful human and robotic exploration of space. As 
is a common practice in our military, peaceful engagement with 
potential adversaries frequently makes them long-term partners 
in pursuit of the common goal of international peace and 
stability. Likewise in science and technology research, as well 
as human space exploration, engagement with our potential 
adversaries has the great advantage of focusing our efforts on 
common peaceful pursuits and advancing the cause of humankind 
here on Earth.
    We already know how difficult it is to get humans safely 
into space and back home to Earth. We need not make it even 
more difficult by holding the NASA budget down to a level where 
we are forced to make the choice between scientific and 
technological research and human exploration, thus decreasing 
our chances of successfully pursuing either.
    Thank you again for this opportunity to share some of my 
thoughts with you today. I too look forward to questions.
    [The prepared statement of Mr. Bolden follows:]

      Prepared Statement of Charles F. Bolden Jr., Major General, 
         U.S. Marine Corps (Retired); CEO, JackandPanther, LLC

    Madam Chairman and distinguished Members of this Subcommittee: I am 
honored to be afforded the opportunity to address you this afternoon on 
the very critical issue of budget and programs for the National 
Aeronautics and Space Administration (NASA). A quick review of my 
background and qualifications to be here might be appropriate. I am a 
career officer of the United States Marine Corps, now retired after 
34\1/2\ years of active service, 14 of which were spent assigned to the 
NASA Astronaut Office at the Lyndon B. Johnson Space Center in Houston, 
Texas as a pilot astronaut. At the time of my retirement, I was 
completing my service as Commanding General of the Third Marine 
Aircraft Wing headquartered at the Marine Corps Air Station Miramar, 
San Diego, California. During my tenure in the Astronaut Office, I flew 
four space shuttle missions--two as a shuttle pilot and two as mission 
commander. On my first flight it was my honor to serve as a crew mate 
with a Member of this Subcommittee, Senator Bill Nelson, an experience 
that established a bond of friendship with him and his family--Grace, 
Nan Ellen, and Billy--that my family and I cherish to this day. Between 
my third and fourth flights on the shuttle, I served as the Assistant 
Deputy Administrator of NASA here in Washington under then NASA 
Administrator, Dan Goldin. My primary responsibilities involved 
spearheading a review of NASA's budget and its primary programs and 
projects and formulation of recommendations for program restructuring 
to fit within the budget constraints established by the Administration 
and the Congress of the United States. I left the space agency and 
active involvement in our space program in June 1994, so I feel that it 
is appropriate that I be classified as an outsider in offering my 
perspectives on the issues before this Subcommittee.
    As was the case in 1992 when I came to Washington to assist with 
Administrator Goldin's efforts to redefine and streamline the agency, 
NASA today finds itself faced with the challenges of redefining and 
reorganizing in order to support and carry out the President's Space 
Exploration Initiative and enable us to maintain our scientific and 
technological leadership in the world while we progress in a timely 
manner in our efforts to return humans to the lunar surface and on to 
Mars. At this time some of us are beginning to understand fully the 
statement credited to the late Dr. Bob Gilruth, Director of the Johnson 
Space Center in what may be called the golden age of human space 
flight, when he said ``People will realize how difficult it was to go 
to the Moon when we try to return.'' While we have a pretty good grasp 
on the technology to accomplish this mission, I'm not certain we have 
the national will power or determination. I do not mean to insult 
anyone's intelligence today, but I do wish to remind all of us that 
exploration of any sort is risky, expensive, and unpredictable. While 
we may be able to continue many of the science and exploration programs 
on which we have been embarked over the past forty plus years, we 
cannot do them on the cheap and we cannot do them in series. Human 
exploration and science experimentation and research are necessarily 
parallel endeavors that are mutually supportive if we are to realize 
success in either. While the NASA Administrator, Dr. Mike Griffin, is 
making a very commendable effort to fit it all into today's NASA 
budget, it's like trying to fit fifteen pounds of stuff into a five 
pound sack. From my perspective, you in the Congress and the President 
must see your way to expanding the funding for NASA by some marginal 
amount that will enable Dr. Griffin to retain emphasis on many of the 
science and aeronautics programs that are being reduced or cut. As an 
example, building a vehicle or set of vehicles to take humans to the 
Moon and on to Mars without continued emphasis on the life science 
research to understand more fully the environmental and human factors 
challenges that must be overcome to successfully allow humans to 
survive these journeys is a certain recipe for disaster and ultimate 
failure. Similarly, funding increased science exploration and 
experimentation through employment of robotic vehicles and remote 
sensing and satellite data gathering without continued improvement in 
our ability to safely send humans beyond Earth's bounds and on to other 
heavenly bodies literally defeats our innate human drive and curiosity 
to explore the unknown and venture from this planet in search of ways 
to improve our lives here at home. In the very simplistic and perhaps 
somewhat naive words scribbled on a rough space exploration drawing by 
a young third grader in 1992, Samantha Aignier, ``We'll never know if 
we don't go!''
    Perhaps the greatest casualty of NASA's failure to adequately fund 
a balanced program of human exploration and science and aeronautics 
research will be the continued deterioration in interest in science and 
math among our elementary and secondary school students, not to mention 
the college and post graduate students who see no value in pursuing the 
fields of science and engineering where each year brings less and less 
funding for research to the university campuses. Where once students in 
elementary school responded with enthusiasm in large numbers that they 
wanted to be astronauts when they grow up, most no longer hold this 
aspiration when I visit the campuses around the U.S. to talk about my 
exploits as a test pilot and astronaut. Many of today's students don't 
even know that we still have Americans in space every single day on the 
International Space Station. They want to know when we're going to 
return to space and go to the Moon and Mars.
    I'd like to offer a closing thought on what I believe continues to 
be one of the greatest benefits of human space exploration--the 
incredible opportunity for international engagement and cooperation in 
a common goal of furthering our understanding of this universe in which 
we live. Experts site all kinds of reasons for the peaceful cooperation 
of Russia and the United States today, but I feel that a primary reason 
that Russia even exists today in relative peace and prosperity is due 
to the continued support and cooperation we gave to them from the days 
of the Apollo-Soyuz Test Project in 1975 through the fall of the Soviet 
Union continuing to today. We have an opportunity to forge the same 
kind of alliance with the people of China by fully welcoming them into 
the family of space-faring nations and opening opportunities to them to 
join with us in the peaceful human and robotic exploration of space. As 
is a common practice in our military, peaceful engagement with 
potential adversaries frequently makes them long-term partners in 
pursuit of the common goal of international peace and stability. 
Likewise in science and technology research as well as human space 
exploration, engagement with our potential adversaries has the great 
advantage of focusing our efforts on common, peaceful pursuits and 
advancing the cause of humankind here on Earth. We already know how 
difficult it is to get humans safely into space and back home to Earth. 
We needn't make it even more difficult by holding the NASA budget down 
to a level where we are forced to make the choice between scientific 
and technological research and human exploration thus decreasing our 
chances of successfully pursuing either.
    Thank you again for this opportunity to share some of my thoughts 
with you today. Best wishes in your deliberations on the future of our 
national space program and the legacies it will leave to future 
generations.

    Senator Hutchison. Thank you very much. I appreciate all of 
your viewpoints.
    I want to start, Dr. Voorhees, with you. You suggest that 
the research in microgravity has matured substantially over the 
years, but now we may be in danger of losing that momentum. 
Could you lay out what would be the next step? What do you see 
out there in the near term that we may be missing because we 
are not pursuing what we can do in the International Space 
Station?
    Dr. Voorhees. I think there are so many things that we are 
going to be missing that it is difficult to contain them in a 
short answer to your question, but let me hit on some 
highlights.
    There are questions in fundamental research that stretch 
from things such as how fluids behave in a microgravity 
environment. Experiments are going on right now, amazingly 
enough, even with all the challenges on the Station, looking at 
how colloids behave in space. These are models for 
crystallization of materials that are used on the ground. So we 
have this basic research effort underway on this that is 
underway in the microgravity program.
    Senator Hutchison. Expand on that a little bit. What does a 
colloid crystal----
    Dr. Voorhees. OK. Imagine if you took a liquid and you 
disperse it and it is in very, very small particles, and these 
are particles that are smaller than the diameter of your hair, 
for the most part. In microgravity, you do not have to worry 
about these colloids settling down as you do on the ground. 
These colloids are marvelous models for the behavior of 
materials on the ground, how materials transform from a liquid 
to a solid. You start off with a random array of atoms in a 
liquid and it becomes a solid. The same sort of thing happens 
with colloidal crystals in space. So that is a very basic 
fundamental question that the microgravity program has been 
addressing.
    But there are also issues that bear directly on the human 
exploration of space effort. I mentioned the combustion 
program. This is not just me saying that combustion is 
important. Every National Research Council study that has 
looked at the microgravity program in the past 10 years has 
recommended this is an important area to do research in. We 
simply do not understand how combustion works in a microgravity 
environment, and let me give you some examples.
    If you were to start a fire on this piece of paper and you 
had a slow flow of air along the paper, on the ground the fire 
may burn in this direction. In microgravity, it burns in the 
other direction. So qualitatively different behavior in what 
you see in space and you see on the ground. And you would not 
know this unless you had the combustion research program 
underway within NASA.
    The thing that we have found is that the NASA engineers are 
extremely interested in this information and very quickly 
incorporate this information into spaceflight safety 
procedures. But if you are not doing the research, you are 
never going to know.
    Let me give you one other example. There is a very popular 
program that the National Institute of Standards and Technology 
makes, and it is a program that can be used to understand how 
fires propagate in buildings. It has been downloaded many 
thousands of times. If you were to ask NASA what happens in a 
fire on a lunar base, do you have a program that would simulate 
the evolution of the fire through this lunar base or through a 
spacecraft, the answer is it does not exist. And it is only 
through research in the combustion area that these programs can 
be developed.
    So there is this enormous range of research underway from 
the very basic, which is the colloids, to the very applied, 
very closely related to human exploration and development in 
the space effort.
    Senator Hutchison. One of the things that we put in the 
authorization bill that was new, in an effort to be creative on 
the money side, was to designate the U.S. portion of the Space 
Station a national laboratory. We did that because we thought 
perhaps there would be private sector research that would be 
beneficial to a company that could help pay for the cost of the 
Station and hopefully mitigate some of the reductions in 
funding from NASA that are not going into the research that we 
would all like to see.
    This is open to anyone. Do you have any thoughts about how 
we could start pursuing those outside sources for the research 
in microgravity conditions that would stretch our dollars? We 
have public/private partnerships in NIH and ACI and there is no 
reason not to have it on the Space Station. Can you help us 
flush that out?
    Dr. Voorhees. I think the challenge of industrial research 
on the Station is the expense involved in transporting 
equipment and samples up to the Station and getting them back 
down. So that means for industries in general to do research on 
the Station, you have to find research that involves very 
lightweight materials, very lightweight experiments, and one 
that can be turned around relatively quickly, which is why some 
of the research that industry has been interested in, in the 
biological crystallization area, is a potential candidate for 
this.
    The challenge of doing that kind of research like 
biological crystallization, for example, is the turnaround time 
and the difficulty of getting samples up and samples back and 
doing it quickly and on a timely basis. The time scale for 
biological crystallization research is very, very short, and so 
it has been difficult, I think, to engage many companies to 
become involved in that research. So I think it is a difficult 
thing to do actually.
    On the other hand, I think designating the ISS as a 
national laboratory is a fantastic idea, one that I have been 
saying is exactly what we should be doing a long time because 
it is essentially a laboratory that allows people to do 
experiments in reduced gravity. That is what it really is and I 
think that is the way it should be looked at.
    Senator Hutchison. Well, any other ideas on that subject? 
We are certainly looking for ways to maximize that designation 
and get some things going. So maybe if you think about it, you 
could provide written ideas later.
    Senator Nelson.
    Senator Bill Nelson. Well, I think the testimony from each 
of you has dramatically demonstrated why you cannot put 10 
pounds of potatoes in a 5-pound sack and why we need to do each 
of the things that you have talked about: studies on the 
magnetosphere, Dr. Torbert; particles and how they behave in 
space, Dr. Voorhees; Dr. Pawelczyk, what is going to happen to 
the life sciences. Are the three of us, as former astronauts, 
going to mutate?
    Dr. Pawelczyk. Hopefully not.
    [Laughter.]
    Senator Bill Nelson. And, General Bolden, as that little 
girl said, you are not going to know unless you do it.
    So all of this should come together. And that is what 
supposedly we have a science program in NASA for. That is why 
we have an International Space Station, which, by the way, I 
would like to see the Chinese involved with, General Bolden, as 
well. You were very accurate that as the thaw occurred between 
the United States and the Soviet Union, we already had this 
relationship in space that started way back at the time that we 
were mortal enemies, as two super powers. But here we have an 
International Space Station that we can do part of what you all 
are talking about and still keep the human dream and spirit and 
character of the American people alive, which is to explore the 
unknown.
    So I am going to continue to agitate in what Senator 
Hutchison and I helped put together last year as a thoughtful 
approach to how NASA ought to be funded over the next 3 years. 
I will continue to agitate to try to fund to that level. 
Otherwise, you have the choices that are being made very 
painfully by Dr. Griffin.
    Mr. Bolden. Senator Nelson, if I can say something. Because 
of where you come from, you understand the need for continued 
emphasis on space exploration from the standpoint of a 
technology workforce. It is the same thing in academics and in 
science and engineering. If we drive students and post-doctoral 
scholars away from the sciences and engineering because we do 
not have the money to fund it right now, you cannot turn it 
back on. It does not happen. Someone does not get a Ph.D. in 
weeks, and unless we maintain the interest in the life sciences 
and materials sciences and the other types of things that we 
have done both on the Shuttle and the International Space 
Station, we are going to find ourselves falling even more 
behind than many of us feel we are doing right now in terms of 
technological countries in the world. So for what it is worth.
    Senator Bill Nelson. Yes, sir, Dr. Torbert.
    Dr. Torbert. Senator Nelson, I would like to add two 
points, both of which you mentioned there. One is this business 
about the ongoing programs for students, how you really cannot 
turn it off. I mentioned the GEC, which stands for the Geospace 
Electrodynamics Connection. This is a program in ionospheres 
which is really suffering. It is not a program I work in right 
now, but it is a classic case. There is a wonderful group at 
the University of Texas at Dallas, Senator, which has led the 
way in this research, which in fact suffers exactly this 
problem, that if opportunities do not come along that they can 
continue, then that whole line of research, that whole line of 
student interest may soon vanish.
    The other one is that in science, as well as the manned 
program, the international aspect is really important. Science 
is an international effort. I myself have launched on a 
European spacecraft that ended up being launched on a Soviet 
launch vehicle. It was a wonderful experience and just like the 
manned program, it really is a way to foster peace, and it is 
an excellent program for the country to support.
    Dr. Voorhees. I would like to amplify on this issue as well 
because the microgravity program is an example of what happens 
when you do not put a program together carefully. If you look 
at the early pre-1990s microgravity program, the research that 
was done for the most part was rather ill-conceived and did not 
lead to very new and interesting science. In 1990, NASA decided 
to start building up this community, and it took about 10 years 
to do this. So if NASA was to cut the research now and not fund 
going forward, it will be another 10 years just to get back to 
where we are now.
    Dr. Pawelczyk. If I may pick up with that exact comment in 
the life sciences arena, I can assure you with the way that the 
ISS is designed at this point in time, we will never be able to 
do the research that we were able to do in the 1990s, and it is 
for the simple reason that we will have no capability to house 
or support research animals on board the International Space 
Station.
    We talk about these issues such as bone research, and only 
within the past 2 years did we recognize what a mistake we had 
been making with that among Americans. Many of you have had 
bone scans, DEXA studies, and you get your rate of bone mineral 
loss. Well, that is sort of a lumped figure. We take a slice 
through a bone and we put the density of it all together. We 
now have the ability, only in the past 2 years, to 
compartmentalize that, look at the inside of bone versus 
outside of bone. What we have learned from astronauts is that 
the rate there is about 2.5 percent in that spongy trabecular 
bone. It is much, much greater than the outside part.
    The only way we can look at that any further is to actually 
go in and sample that bone. We cannot do it in a human. We need 
a research animal to do that, and we do not have that 
capability, the capability that we did have when we were flying 
laboratories on the Shuttle.
    Senator Bill Nelson. Well, you all have made my case very 
eloquently I might add. I would just add to what General Bolden 
has said, that we are here in a once-in-a-generation transition 
in human launch capability. You cannot delay this because the 
Shuttle is going to be shut down. We have a multi-billion 
dollar investment up there, the International Space Station, 
that we need to have the ability to get to with a sufficient 
crew so that we can do some of these experiments. So we have 
got to do this transition.
    Now, how do you get it all done if you do not have enough 
money? And you do not. And that is the thesis of this whole 
thing. I think it is going to be incumbent upon us to go to 
work on this.
    Madam Chairman, I would just say, as I would point out to 
everybody, that General Bolden has just been inducted last 
month into the Astronaut Hall of Fame. That is just like other 
halls of fame that you have heard about, the baseball, the 
football, and so forth. It is a distinct honor to be named to 
that. So my congratulations to General Bolden.
    Mr. Bolden. Thank you, sir.
    Senator Hutchison. Thank you.
    Senator Sununu.
    Senator Sununu. Thank you.
    Dr. Torbert, you mentioned GEC. In your testimony you talk 
about the indefinite postponement and the message that that 
sends and the impact that it has on individual researchers 
looking at their chosen path, their chosen field.
    Could you talk a little bit more about this type of 
situation and the impact it can have on recruiting? And in the 
particular case of GEC, what does happen to those researchers? 
Are there other opportunities that they can pursue? What might 
be typical for a situation where a mission is postponed for the 
individual researcher? Where might they end up?
    Dr. Torbert. Usually what happens in that case, this 
particular individual like in GEC is a tenured faculty member 
like myself, they will try to keep themselves entertained. That 
is usually what we went into science for. And they usually can. 
Some part of the research can continue. He is an individual 
about my age and so it is hard to teach older dogs newer 
tricks.
    The real impact is that the line of students that he can 
recruit into that program, the line of students who may stay in 
space science or go into industry or go into the technological 
base, that line is stopped. Then the faculty look for different 
ways to invest their faculty resources, which are about our 
most precious level of resource.
    So in that sense, over a long period, programs can 
accommodate. We will look for new areas of research. They may 
not be in the NASA area. I think that is a tragic loss. But 
they may go into different areas that--either physics or 
chemistry or whatever--they deem appropriate.
    The real loss is that in this particular case, there are 
key questions of low-Earth orbit, ionospheric interaction with 
spacecraft, how the atmosphere interacts with the ionosphere 
with the sun and the input in the materials that we do put in 
the atmosphere and how that transports into the whole dynamics 
of that system. That whole line of thought is lost. Then it 
takes sometimes 50 years for somebody to say well, we did work 
on this 50 years ago. Let us try to remember what we did.
    Senator Sununu. Are there any skill sets or areas of 
expertise where you are particularly concerned at this point in 
time, given where you see the budget is headed?
    Dr. Torbert. I would say the biggest impact--and I should 
mention I participated in an NRC panel that was invited by NASA 
to look for the future workforce in the Vision for Exploration. 
It was concluded in that panel that the key lack was scientists 
and engineers who had really performed hands on, built space 
instrumentation and knew how it functioned among larger 
systems. In that case, if you do not have those individuals, 
what we found--and this is a big driver, I think, in some of 
the cost of missions--you tend to overplan, overmanage. You 
tend to go through a whole period in which you do not know and 
have to train yourself instead of having gone through that 
procedure first and having gone through those mistakes.
    I know when I was a graduate student, we had a very 
sensitive instrument, a detector, that we had to use, and it 
was always said by the graduate students you really were not a 
graduate student until you broke it. Like all the other 
graduate students, I said, well, that is not going to happen to 
me. I can tell you the look on my face when I went in to my 
faculty member and said, well, I just broke the equivalent of 
my entire year's salary. What are we going to do about this? 
Fortunately, I only broke it once, and that is the way that 
graduate students learn.
    Exploration really challenges adversity, really challenges 
the limits, and we must train scientists and engineers to go 
through that process so that when we do plan big manned 
missions, big operational missions, we have people who know 
what they are doing. This is a critical part.
    Senator Sununu. Dr. Voorhees, I want to ask you the same 
question. In your area of expertise and in your personal 
experience, is there a particular skill set that you are most 
concerned about given the projected changes in the science 
budget?
    Dr. Voorhees. I think the issue is engaging graduate 
students in the future. I have had this experience just 
recently in my laboratory with an experiment that was formerly 
canceled and now has been reenergized or refunded as a result 
of the 15 percent funding that has been given to the Station. I 
went in to one of my students and I said, well, it looks like 
we are going to be able to finally do the spaceflight 
experiment. She was just enamored. She was so excited about 
this. That excitement is what you lose when you do not have the 
funding that is connected with NASA.
    A number of my students have worked with NASA engineers. A 
number of the students in this microgravity program have ended 
up at NASA field centers as scientists. That pipeline will 
entirely disappear if there is not the seed corn that is being 
put into the research program in the universities.
    Senator Sununu. Dr. Torbert, it seems to me that we 
maximize that benefit, the inspiration, excitement, 
recruitment, when we are able to fund a variety of different 
types of investigations, a variety of different types of 
experiments that draw on different disciplines and different 
expertise. You mentioned in your testimony the value of the 
smaller mission opportunities. You mentioned Explorer, 
Discovery, and Pathfinder programs. Can you provide any other 
specific examples of smaller science missions and what you view 
their value and success to be?
    Dr. Torbert. I should not say just in our missions. There 
is the Wilkinson Microwave Anisotropy Probe I mentioned in my 
testimony. That is from the astrophysics side. There are 
planetary discoveries to asteroids. There are also planetary 
missions that may be even larger that do not come to the multi-
billion level, such as Cassini and the former Galileo program. 
I also mentioned the sounding rocket program, and this goes 
across all the disciplines at NASA, the microgravity, also 
aircraft opportunities in the sounding rocket program, balloon 
programs. These are programs that come in the lifetime of a 
graduate student so that there is a particular ownership they 
take from designing the experiment, all the way through flying 
it, all the way through analyzing it.
    Senator Sununu. I am sorry. What do you consider the life 
of a graduate student to be?
    Dr. Torbert. I will not talk about my life.
    Senator Sununu. Is that 12 or 15 years or is that 3----
    Dr. Torbert. Hopefully not. We shoot for 4 to 5 years of a 
graduate student.
    Senator Sununu. So a 4- to 5-year time frame. And what kind 
of an overall cost for these lower cost missions?
    Dr. Torbert. Well, a typical satellite mission, which is 
probably mid between those, usually will support three to four 
graduate students during that period, and with the NASA center 
costs and whatever, it comes to a couple of million dollars.
    Senator Sununu. Which is extremely small compared to some 
of the larger missions.
    Dr. Torbert. We think we get a lot of bang for the buck.
    Senator Sununu. General Bolden or Dr. Pawelczyk, do you 
have any thoughts about striking the right balance between 
bigger efforts, bigger scientific missions and some of these 
lower cost missions?
    Dr. Pawelczyk. Senator, I am not sure I would choose the 
bigger cost versus lower cost as the metric there, but I would 
try to think about scientific return. You have heard the theme 
here of graduate students as well. I would also think about 
that, projects that can fund large numbers of students and can 
continue to maintain technological excellence in the United 
States.
    Let me give you a couple thoughts related to that. I think 
graduate students are the greatest virtue that I have working 
at a university. I refer to them as boundless enthusiasm 
unchecked by reality, and they teach me every day that they can 
do things that I never thought that they were able to do.
    I also know, being at Penn State University, that we have a 
couple things that we value greatly. We value the longevity of 
our football coaches. We also value our land grant status, and 
we greatly value our space grant status as well in providing 
that. We have not even mentioned the space grant program here 
yet, which has also received enormous cuts and goes directly 
into funding students throughout each of the 50 States. As that 
program is scaled back, that is going to have an additional 
impact here that is really going to hurt us. We need to think 
about that one as well.
    So I would really think about that student metric. I think 
you can quantify it pretty well. NASA has pretty good databases 
started on that. And you will see that effect right there. I 
see it every week when students come in and say I would love to 
work with you, and I say, I am sorry, but we have just lost our 
funding in that area and you are going to have to go somewhere 
else.
    Senator Sununu. General?
    Mr. Bolden. Senator, let me talk a little bit about my 
experience in the Marine Corps 9 years after leaving the space 
program. I was amazed at how much we use technology developed 
to support humans in space. Today when you send a Marine out 
with 150, sometimes 200 pounds on his or her back, you would 
like not to be able to do that. You would like to be able to 
give them a lot less stuff to pack but with the same 
capability. In some cases we can do that with communication 
systems, with, quote/unquote, guidance and navigation systems 
that have come through basic research, 6-1, 6-2 research.
    I have sat on study boards for the National Academy looking 
at science and technology development for the Navy and the 
Marine Corps. One was called, ``Navy Needs in Space,'' and it 
was amazing when you have people who tell you I do not need 
space, just give me my Classic Wizard and my GPS.
    There is nothing that we do today in the military that does 
not rely on technology developed in space or for space. People 
talk about wasting money in space exploration. I have not seen 
a dime that we have spent in space to date. It all gets spent 
down here to develop systems that come about from the research 
that we do on orbit or just trying to get somewhere.
    Sometimes we fail, but that also helps us determine a way 
not to do things. When you go back and look at electrophoresis 
operations in space that was the big thing--several staffers 
probably remember that. We were going to make very pure drugs 
because we were going to do it in microgravity. Well, it turned 
out that was not necessarily the best place to do it, but we 
were able to determine ways to change the process, to alter and 
perfect the process, so that it could be done much more cost 
effectively and much better here on Earth, but it was because 
of what we had found in doing that experimentation in space.
    Like I said, space exploration is expensive, risky, and 
unpredictable. Frequently we come up with something 
serendipitously that we never, ever imagined, and it goes off 
to the military or it goes off to some laboratory or something.
    But basic research has got to be done. It has got to be 
funded by DOD, by NASA, by somebody, and it is best done so 
that we get the most bang for the buck when it is done across 
the board. NASA is not the only government organization that is 
cutting back on funding for basic research today. We are not 
unique in that respect, and that does trouble me.
    Senator Sununu. Well, I thank you. I want to close with one 
observation and one invitation.
    The observation is certainly related to that last point. We 
have discussed and debated in this committee and in other 
committees in Congress the concept of a competitiveness 
initiative, and by and large, the core element of that has been 
increases in our funding for basic sciences. The chair and 
others have advocated for a greater emphasis on fundamental 
research, investment in the physical sciences through the 
National Science Foundation and other avenues. This science 
mission at NASA should obviously be part of that. To the best 
of my knowledge, it was not made a part of the Administration's 
competitiveness proposal, and I think that is something that we 
need to look at.
    There have been a number of proposals related to 
competitiveness that I have not supported because they have not 
been sufficiently focused on basic sciences. But if we are 
going to do anything in this area, I think that the science 
elements within NASA and the science budgets within NASA ought 
to be part of that.
    Finally, the invitation is to each of our panelists. Is 
there anything that you would like to offer that we have not 
been insightful enough to question you on?
    Dr. Pawelczyk. Let me just offer one area of research very 
briefly, and that is the area of fractional gravity. We have 
spoken a great deal about going to space and accessing space, 
but being in space provides us the opportunity to look at the 
range of gravitational fields that are less than what we 
experience here on Earth when we are in that free-fall 
environment and rotate something to induce the centrifugal 
field.
    When I gave you the projections I did, I gave them to you 
assuming that the Martian environment would confer no safety to 
human bone or muscle or the cardiovascular system. That is the 
conservative estimate that I have to apply because I am worried 
about people like Charlie. I do not know if I am right or not.
    What if that fractional environment does confer some 
benefit? Then a lot of these problems go away. We do not have 
to worry about whether or not we are going to need to rotate 
that Martian spacecraft to induce a gravitational field. Those 
are things in the structures that will be required to do that. 
We do not know those things, the answers to those questions 
right now, because we have not put that capability or we have 
removed that capability from the ISS, where storing fractional 
gravity research environments on the ISS is of extreme value 
for down the road, and it really is an investment in the 
future.
    Dr. Voorhees. You brought up the competitiveness 
initiative. In the microgravity sciences, the overlap between 
what gets done at NASA and in many other agencies is close but, 
nevertheless, distinct. So in this area, the ISS and access to 
these microgravity platforms is like going to a national 
laboratory, like taking a sample to a synchrotron, for example, 
an x-ray source. The same sort of basic research that is done 
in the microgravity sciences is very much related to the things 
that go in the other agencies in the competitive initiative.
    Dr. Torbert. One item that I mentioned I do think we need 
to work on ourselves. It is certainly the case that NASA 
desperately needs some remediation in the area of funding, but 
I mentioned the area of risk. I think this is important. You 
heard it in two aspects. You heard the fact that we take risks 
in doing exploration. That is an important thing. It is also 
important in science to have a variety of missions, and the 
more that we can fund, more inexpensive missions, reduce the 
cost of science missions, or as I pointed out in my testimony, 
differentiate the level of risk so that at the lower level we 
can take more risks. At the higher manned space level, of 
course, we have to be as risk-free as we can, but it is not 
absolutely risk-free. There is nothing risk-free about that 
endeavor. I think this is an important thing for NASA and its 
colleagues in universities to work together to do because if we 
can reduce the costs of these missions, then we can have more 
variety of them, we can take more chances, we can find some of 
those things out that we do not know, and this is an important 
contribution to the Nation's space program.
    Senator Sununu. And do you think there is too great a level 
of discouraging risk at this point?
    Dr. Torbert. At present, most of the science community is 
discouraged by the level of risk mitigation. That is a natural 
thing. Let me tell you how it comes about. NASA tries to be, as 
I said, a ``one-NASA'' organization. There are very good 
processes and procedures that go throughout the program. And 
the good thing about it is there are managers and engineers who 
work with the manned space program, and then they come and work 
on various science programs. That way the NASA science 
personnel get a variety of experiences, which is all for the 
good.
    But that has a sort of a diffusion tendency by which the 
procedure we had in this manned program can be applied to the 
sounding rocket program. Well, that is all good and true if you 
have those kind of resources, but we want more flights and to 
take the risk in the sounding rocket program which we cannot 
take in the manned program and everywhere in between. This is 
something we need to work on.
    By the way, the SMD, the Science Mission Directorate, has 
just started a top-to-bottom review of its risk processes and 
we will be working very hard with that committee to see that we 
can fashion procedures that are both cost-effective and 
successful.
    Senator Hutchison. Thank you. Thank you very much.
    By the way, the concern you stated is one that I have, that 
NASA should be every bit as much a focus in the competitiveness 
initiative. We did try to push that along with cooperation 
agreements and requirements in the most recent bill that we 
passed on the competitiveness initiative, but I would love for 
you to look at it, if there are other things we can do. NASA 
has a uniqueness because of the Space Station and the 
microgravity conditions that no one else is going to have and 
fully utilize. So we do need to make sure that we are as 
committed to NASA and certainly the National Science Foundation 
in this competitiveness initiative as we can be.
    Dr. Pawelczyk, you said that we are not using animals 
anymore and that has degraded the potential for the life 
sciences. Is the reason that we are not using animals because 
of funding cuts or is it because we are not putting the 
laboratory in the Space Station that would allow us to do that 
type of research?
    Dr. Pawelczyk. The answer is both of the above. So the 
facilities for housing animals on the International Space 
Station have been eliminated, the animal habitats. So they are 
not being funded anymore. They were approaching flight 
readiness.
    If you look at then the constraining factors, assuming that 
were restored, there are sort of three different things that 
you have to balance and think about. You have to think about 
just getting stuff up there, how much mass you can actually 
take up on the shuttle with you, and we are sorely constrained 
on that now. It is a reason to encourage as rapid a development 
as possible of the cargo version of the crew exploration 
vehicle because it will provide a great deal of uncrewed up-
mass.
    We are also constrained by crew time. You are going to want 
people who are going to want to check in on these research 
animals as well, and that is part of the thing of getting to 
the six-person crew.
    And then power is the last one as well.
    When you look at all three of those, probably the most 
constraining factor is the up-mass, and that then also leads 
you to think more creatively about what can we do with our 
international partners in terms of looking at the autonomous 
transfer vehicle, for example, to bring up animals on board 
with that.
    We will probably not be able to do all of the in-depth 
research, given the cancellation of things like the centrifuge 
accommodation module, but there is great value in simply having 
an animal up there for a long period of time and trying to look 
for the floor effect--to what point do some of these systems 
degrade--and then to using interventions like, for example, 
nutraceutical approaches. How can we modify with diet, for 
example, rates of bone loss and certainly pharmaceutical trials 
as well. So just having animals up there alone will provide 
some benefit.
    Senator Hutchison. Thank you. That is very helpful.
    As you know, in our Authorization Act of 2005, we did 
provide the necessity for NASA to give us a research plan for 
the International Space Station, and it is now on the website 
as of last week. Have any of you looked at that and is there 
anything that needs to be added to the body of knowledge that 
we have put forward today regarding that particular research 
plan, its inadequacies, anything else that you would want to 
focus on that it is not doing? Or, if there are good parts of 
it, tell us that as well.
    Dr. Pawelczyk. I have not reviewed the research plan at 
this point, but there is one key issue associated with any of 
these plans that I think is absolutely essential and that is 
the time frame at which it is done. We need clear milestones 
and simply saying we are going to push something to the right 
is no longer acceptable to us.
    I will take the example back to the students. If I knew, 
for example, that there would be funding coming on board to 
mitigate these very important risks 5 years hence, well, I 
could at least begin to assemble with my life sciences 
colleagues ways to bridge that 5-year period. We would look at 
virtual classes, pooling across the Nation. And we do this very 
well with video technology now. We would look at ways to pool 
our resources to keep some nascent kernel going to that 5-year 
goal when we can then explode with that research opportunity. 
If we do not have that time frame, essentially it is out in the 
vapor. We do not know when it is going to happen. So a reliable 
time frame, something we can stick to, is essential.
    Senator Hutchison. Any other comments on the scientific 
plan?
    [No response.]
    Senator Hutchison. My chief clerk says that we can 
distribute that plan to you as well, and if you do have 
comments, we would like to have them.
    Well, thank you very much.
    Senator Bill Nelson. Let me just make one concluding 
comment?
    Senator Hutchison. Yes.
    Senator Bill Nelson. I think there is a theme running 
through all of their testimony that the excitement generated by 
science and science research and spaceflight can do wondrous 
things for us for the future. Several of you have described it 
in terms of your students. We certainly saw this a generation 
ago when a President said we are going to the moon and return 
in 9 years, and that brought forth a whole new generation of 
engineers and scientists and mathematicians that, by the way, 
in the global context has kept us competitive in the global 
economic arena. That is the challenge for us in the future.
    So I appreciate each of you bringing out that particular 
aspect in the importance of this little agency and what we are 
doing with this budget. I think it has enormous consequences.
    Thank you, Madam Chairman.
    Senator Hutchison. Thank you, Senator Nelson, and thank all 
of you for the time and the great information that you have 
given us today. We are committed on this subcommittee and 
certainly I think we have made great strides in focusing on the 
scientific basis that is the mission of NASA, and we will 
continue to pursue it. Thank you very much.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska

    I welcome our panel of witnesses today, who represent a range of 
interests in NASA programs, especially science and research at NASA.
    I am well aware of widespread concerns being expressed that NASA is 
having to cut into valuable science and research programs in order to 
pay for building a replacement to the Space Shuttle as soon as 
possible, among other things needed to move forward with the Vision for 
Exploration.
    I will urge this Committee to support the President's Vision for 
Exploration. And we support a strong commitment to a broad range of 
science at NASA.
    NASA has always played an important role in maintaining America's 
technological and scientific excellence and enhancing our competitive 
position in the world.
    The Competitiveness and Innovation bill recently reported by the 
Commerce Committee recognizes NASA's continuing importance and the need 
for maintaining a strong commitment to basic research.
    The NASA Authorization Act of 2005, which was initiated by Senators 
Hutchison and Nelson, and which I was an original co-sponsor of, along 
with Senator Inouye, was signed into law last December. It provided a 
sufficient level of funding authority that would have avoided making 
most of the cuts in NASA science programs that we are hearing about 
today.
    Unfortunately, the requested amount for NASA for FY 2007 is over a 
billion dollars less than we authorized.
    We hope that additional moneys can be found to increase NASA's 
overall funding levels, and will continue efforts to make that happen, 
in working with our colleagues on the Appropriations Committee.
    I hope that our witnesses today can help us explain why that 
additional funding is necessary, and how those additional funds would 
be used if they are made available by the Congress.
    I thank the Subcommittee Chairman and Ranking Member for convening 
this hearing and look forward to hearing the panel of witnesses and 
reviewing other material to be submitted for the record.
                                 ______
                                 
 Prepared Statement of John Karas, Vice President, Space Exploration, 
                            Lockheed Martin

    Madam Chair and members of the Subcommittee, I would like to thank 
you for inviting me to provide Lockheed Martin's perspective for your 
hearing on the NASA Budget and Programs.
    Lockheed Martin has interests in all of NASA's mission areas. We 
are excited about, and strongly support, the Nation's Vision for Space 
Exploration. We have a long successful history of providing spacecraft 
and mission operations support for NASA's Earth science and planetary 
exploration programs. We provide key systems for the Space Shuttle and 
International Space Station programs. And we depend on NASA's 
aeronautics research to design and develop systems for our military 
aircraft programs.
    My statement today addresses U.S. leadership in space exploration 
and the following four issues:

        1. The criticality of safe and timely return to flight of the 
        Space Shuttle.

        2. The imperative to utilize and effectively transition the 
        skilled and dedicated workforce of the Shuttle program during 
        the Shuttle phase-out by 2010.

        3. The challenge of balancing priorities of space exploration, 
        science, and aeronautics.

        4. The importance of inspiring and educating the Nation's next 
        generation of scientists, engineers, and explorers.

Safe and Timely Return to Flight of the Space Shuttle
    Lockheed Martin is strongly committed to NASA's number one 
priority: return the Space Shuttle to flight and continue safe 
operation of the Nation's Human Spaceflight program. Lockheed Martin is 
a proud industrial partner with NASA on the Space Shuttle Program. As 
the contractor for the External Tank, we are acutely aware of the 
difficulties and challenges inherent in Human spaceflight. Our 
employees have worked hand-in-hand with NASA to create a safer external 
tank. As you know, the Gulf Coast region has been slow to recover from 
the devastating effects of Hurricane Katrina. Lockheed Martin has 
provided salary and other financial incentives to help retain employees 
in the Gulf Coast, and initiated a Hurricane Katrina relief fund 
comprised of corporate and employee contributions. We completed the 
Return to Flight II External Tank one week ahead of schedule, and have 
just barged the back-up External Tank (ET-118) to the Kennedy Space 
Center. We stand prepared to support the upcoming flight in July. I 
know I can speak for all of NASA's industrial partners when I say that 
we are all dedicated to fly the Space Shuttle safely until its 
retirement in 2010.

Effective Transition of Skilled Workforce
    Workforce transition is the key to ensuring mission success while 
developing next generation systems and minimizing the gap in human 
spaceflight capabilities. NASA's Human Spaceflight Centers, with their 
talented and dedicated workforce, are the crown jewels of this 
country's Civil Space program. NASA is now addressing serious workforce 
and industrial base challenges to ensure successful execution of the 
Vision for Space Exploration. To compound the challenge, it is critical 
that during this transition, NASA and their industry contractors must 
also continue to safely fly the Shuttle and complete the International 
Space Station. A transition on the scale that NASA must undertake 
requires the combined efforts of local, state, and Federal Governments 
as well as industry if it is to be successful. It has been over 20 
years since the United States has developed a new human spacecraft. The 
current skill mix--focused on Shuttle and Station operations--is not 
the same mix that is needed for development of a new system. Change is 
always traumatic, but it is within the crucible of change that 
innovation is born. There is precedence for such a transition. Lockheed 
Martin and the Air Force have retired the venerable Titan launch 
vehicle and several key spacecraft programs. Lockheed Martin 
successfully transitioned thousands of employees from these programs to 
other Lockheed Martin programs. During these transitions, we have 
worked closely with our customers to minimize contract termination 
liabilities; ensure supplier base continuity, including critical 2nd-
tier suppliers; and ease the start-up of next generation systems.

Balancing Priorities of Space Exploration, Science, and Aeronautics
    Since Lockheed Martin has interests in all of NASA's mission areas, 
any significant changes to NASA's budget allocations across their 
Mission Directorates impact our business base and earnings. However, we 
understand that we must join NASA in assessing the big picture, 
adjusting our strategic plans to reflect the Nation's most pressing 
Civil Space priorities. While it is important that we continue to 
aggressively pursue scientific discoveries in our solar system--
deploying Earth science and weather satellites; autonomously searching 
for the origins, nature, and destiny of our universe; continuing the 
robotic search for life--it is also critical that the U.S. remain at 
the forefront of human space exploration. In fact, robotic scientific 
research and human exploration complement one another. As Dr. Griffin 
has succinctly stated, ``the Vision for Space Exploration asserts that 
the proper goal of the Nation's space program is that of human and 
robotic exploration beyond low-Earth orbit.'' For example, current 
planetary orbiters and landers have applicable technologies for Human 
spaceflight. Administrator Griffin has admirably stepped up to these 
challenges and assumed responsibility for some very difficult 
decisions. Lockheed Martin strongly supports the Nation's Vision for 
Space Exploration, and we stand ready to help NASA overcome these 
challenges.

Inspiring and Educating the Next Generation of Scientists, Engineers, 
        and Explorers
    Finally, any discussion about the future of space exploration must 
focus on inspiring and educating the next generation of engineers, 
scientists, and explorers. It is our responsibility--in industry, at 
NASA, across academia, and throughout government--to make sure we are 
providing the opportunity and the motivation for our young people to 
enter careers of science, engineering, and mathematics. This is the 
only way the United States will remain a leader in developing the 
critical technologies to take us beyond low-Earth orbit, revitalize our 
Nation's industrial base, and guarantee a strong defense and national 
security. Lockheed Martin provides financial support to undergraduate 
engineering schools, and embraces a number of recruitment and mentoring 
programs to make certain that the talent pipeline stays full. To quote 
Lockheed Martin's CEO, Bob Stevens, ``Talent is the critical resource 
that's going to drive success in the 21st century, period.''
    Thank you for the opportunity to provide my statement on this 
important topic. Lockheed Martin appreciates the Committee's interest 
in maintaining United States leadership in space exploration. We look 
forward to continuing to work closely with you on these important 
issues.
                                 ______
                                 
  Prepared Statement of Mark J. Lewis, Chief Scientist, U.S. Air Force

    On October 3, 1967, Major William ``Pete'' Knight set a piloted 
airplane speed record in the X-15A-2 rocket plane, flying at more than 
4,500 miles per hour, over six-and-a-half times greater than the speed 
of sound. Nearly four decades later, this milestone accomplishment 
still holds the record for the fastest flight of a human being within a 
piloted aircraft. Pete Knight's flight was one of many great 
accomplishments in the X-15 program, which included over 199 flights 
beginning in 1959, and running through the decade of the 1960s.
    The X-15 pioneered the air-space frontier, gathering valuable 
information that lead to the successful development of reentry and 
launch vehicles including the Space Shuttle. And it also represented 
one of many great aviation collaborations between the National 
Aeronautics and Space Agency and the United States Air Force.
    Indeed, there is a time-honored tradition of cooperation between 
the civilian government aviation sector and military aeronautics 
research. The record of collaboration between NASA and the Air Force 
dates to the era of the National Advisory Committee for Aeronautics 
(NACA) and the U.S. Army Air Corps, the precursors of both today's NASA 
and our modern U.S. Air Force. In the 1920s, NACA performed landmark 
work on engine drag reduction, resulting in the so-called ``NACA cowl'' 
that greatly reduced the drag force on propeller-driven engines, and 
made possible economical airliners such as the DC-3 that catapulted 
American aviation to world dominance. Used successfully in civilian 
aircraft, including racing planes in the 1930s flown by one of my 
predecessors in the U.S. Air Force Chief Scientist's office, General 
James H. ``Jimmy'' Doolittle, the NACA cowl also greatly improved the 
performance of military aircraft in the years leading up to World War 
II. NACA's contribution to the military continued throughout the war, 
including solving problems such as tail buffeting and wing icing, 
improving the overall range and altitude of bombers, and increasing the 
speed of fighters by up to 50 mph by reducing unnecessary drag. NACA's 
contributions to military aviation performance were widely recognized 
outside the United States; the Battle of Britain was fought over London 
between German and British fighters that both used NACA-developed 
airfoils. When the superlative P-51 Mustang appeared in German skies in 
1944-1945, Nazi military and scientific leaders marveled at its 
performance, made possible by NACA airfoil research applied to military 
fighter aircraft design.
    After World War II, this fruitful civilian and military partnership 
in aviation continued. Then-Major Chuck Yeager's Bell X-1 flew beyond 
the speed of sound in October 1947 as part of a joint NACA-USAF 
cooperative program. Both organizations contributed their expertise to 
the development and flight testing of the X-1 series aircraft, and it 
is fitting that the prestigious Collier Trophy was awarded in 1947 to a 
team that included Yeager representing the USAF, NACA engineer John 
Stack, and the president of manufacturer Bell Aircraft, Lawrence D. 
Bell. In the years that followed, NACA contributed directly to the 
design of supersonic fighter jets for the Air Force and the Navy, 
developing the design principles that enabled routine penetration into 
the high-speed flight regime.
    The intrinsic value of military and civilian cooperation was 
clearly recognized in the National Aeronautics and Space Act of 1958, 
which stated that the new agency's:

        ``aeronautical and space activities . . . shall be conducted so 
        as to contribute materially to . . . the making available to 
        agencies directly concerned with national defense of 
        discoveries that have military value or significance, and the 
        furnishing by such agencies, to the civilian agency established 
        to direct and control nonmilitary aeronautical and space 
        activities, of information as to discoveries which have value 
        or significance to that agency . . . ''

    The Space Act also mandated:

        ``. . . close cooperation among all interested agencies of the 
        United States in order to avoid unnecessary duplication of 
        effort, facilities, and equipment.''

    In this spirit, cooperation with the Air Force continued once the 
Space Act was enacted and NASA was created from the various elements 
comprising the original NACA plus those from the Army's ballistic 
missile program. Whether in the use of military test pilots as the 
original astronauts or the application of NASA wind tunnels and 
materials to the design and development of high speed military 
interceptor aircraft, the Air Force and NASA have cooperated at all 
levels of their organizations. Today, there is not a single aircraft in 
service with the United States Air Force or, for that matter, any of 
our military branches, that does not benefit from NASA's aeronautical 
input. Recognizing the importance of continuing this legacy of shared 
cooperative achievement, leaders of both NASA and the Air Force have 
renewed their commitment to maintaining and strengthening cooperative 
ties between the organizations. This focus on cooperation leverages the 
capabilities of the two organizations, and though it is endorsed at the 
top-most levels it permeates the functional organizations and is 
ultimately enabled by numerous individual researchers.
    Cooperation does not mean duplication, nor does it mean that either 
agency is performing the other's mission. Rather, it reflects the 
healthy relationship of two mature organizations that have strong 
specialties but who are, as well, united in a common purpose: ensuring 
continued American air and space dominance in the 21st century. The Air 
Force is responsible for system development, test and evaluation, and 
acquisition of military craft. NASA, on the other hand, has the mission 
of performing cutting-edge aeronautics research, leaving system 
development and acquisition to the civil aeronautics industry.
    This fundamental difference means that, while NASA and the Air 
Force have similar levels of relative involvement in basic 
(fundamental) research, their respective roles diverge as activities 
move into the development arena. Since NASA also has responsibility for 
the operation and maintenance of numerous aeronautical test facilities, 
there is also opportunity for mutual cooperation in test and evaluation 
activities. Thus, while the missions of NASA and the Air Force are 
independent, their common research goals in aeronautics dictate a close 
research partnership that benefits both parties.
    The original Space Act mandated that NASA has the responsibility 
for the ``preservation of the role of the United States as a leader in 
aeronautical and space science and technology.'' Given that the 
military aeronautics revolution is now almost a century old, and the 
invention of the airplane already over a century, it is understandable 
that some may ask if a continued investment in aeronautical research 
and development is still relevant to NASA's mission, or for that 
matter, to that of the Air Force. After all, we have over a century of 
experience designing aircraft; what more is there to learn or do? Have 
airplanes really changed very much in recent history, and are they 
likely to change much more in the future? Have we solved the most 
important problems in aeronautical engineering, and are our analysis, 
design, and testing techniques as good as they will ever need to be? 
Along with such questions is one of overriding concern to the American 
taxpayer: should the resources originally dedicated to atmospheric 
flight be redirected to more promising research areas?
    The answer to all of these questions, for the military, commercial 
and scientific sectors, is that aeronautics remains a vital and 
blossoming field of human endeavor. It is a discipline that is 
continuing to advance and develop, with great unanswered questions and 
incredible potential for future applications. Aeronautics continues to 
drive technology in other technical disciplines, ranging from computing 
to materials to energy utilization, and it remains an important part of 
our military capability as well as a key component for the continued 
exploration of space.
    Some might adopt a view that aeronautics is ``mature'' because the 
rapid advances that characterized the opening decades of flight seem to 
overshadow more recent accomplishments in the field, at least under 
superficial inspection. Indeed, the 20th Century did see an increase in 
airplane speed from 10 mph of the original Wright Flyer to over 2,500 
mph for the SR-71 Blackbird; an increase in altitudes from a few feet 
above the sand dunes of Kitty Hawk to the fringes of the atmosphere; 
and the introduction of such revolutionary technologies as jet engines, 
automatic flight controls, pressurized cabins, and regular passenger 
air transportation. The first century of aviation transformed our 
civilian world and ushered in a new era of military effectiveness with 
hitherto undreamed-of capabilities made possible by air power. Such 
capabilities as stealth technology and unmanned systems are among the 
most recent of these successes. We can be certain that advances in this 
second century of aviation may be less overtly spectacular, but 
ultimately will be no less spectacular in the fundamental and profound 
impacts they will have on both the commercial and military sectors.
    Several important trends are apparent as we look at aviation 
progress in the decades to come:

        1. Aerospace engineers will continue to push the boundaries of 
        aircraft height, speed, and performance. Automation and 
        unmanned systems will play an ever-increasing role in air 
        power, building on the success of Predator and the Globalhawk 
        unmanned aircraft. Technologies will be developed that will 
        allow us to operate at higher altitudes for more persistence 
        and permit us to fly at very high speeds to strike fleeting 
        targets rapidly and accurately. As closing the ``sensor to 
        shooter'' loop has enhanced our ability to detect and fire upon 
        a foe, closing the ``shooter to target'' loop with high-speed 
        weapons will further degrade the ability of any foe to act 
        against us. This might be a cruise missile able to accurately 
        reach targets 1,000 miles away within mere minutes, or a 
        supersonic-cruising UCAV dispensing advanced penetrating smart 
        munitions. This same technology may allow us to use an 
        airplane-like operational model to reduce the cost of launching 
        spacecraft into Earth orbit and provide unprecedented access to 
        the space environment.

        2. Aeronautics will continue to play a key role in the 
        development of space technology for both the Air Force and 
        NASA. Space vehicles are subject to significant aerodynamic 
        forces during launch and reentry. In the modern era, air and 
        space vehicles are interdependent, not independent. Each is 
        critically dependent upon a robust understanding of the other. 
        This is an area for continuing aeronautics research, and the 
        general topic of flow over reentering surfaces will be of great 
        importance in the development of future manned and unmanned 
        spacecraft, including NASA's planned return to the Moon and 
        visits to Mars. In fact, at this very moment, engineers from 
        NASA's Langley Research Center are working with an Air Force 
        team to test a heat shield for the Mars Science Laboratory in 
        the Air Force's Hypervelocity Wind Tunnel in White Oak, 
        Maryland, just a few miles north of Washington, D.C. In the 
        fall, this same NASA-Air Force team will begin testing designs 
        for NASA's manned Crew Return Vehicle, the craft that will 
        bring astronauts home from the next series of lunar missions.

        3. Fuel costs and availability, as well as environmental and 
        operational concerns, will also drive another important 
        aviation research push: greater fuel efficiency and use of non-
        traditional energy sources. To further increase efficiency and 
        improve performance, the tremendous advances in material 
        science and computers will enable us to build and fly aircraft 
        that can change their shapes in flight.

    In each of these areas, engineers at NASA and the USAF are bringing 
their unique capabilities, resources, and mission perspectives to the 
challenges at hand, for the good of our Nation. These cooperative 
efforts span the range from formal, executive-level committees to 
informal technical exchanges between individual researchers; and cut 
across programs, projects, personnel, test facilities, and 
infrastructure.
    Three principal mechanisms describe the nature of Air Force and 
NASA cooperation:

  <bullet> Strategic Partnerships are defined as cooperative 
        arrangements where each organization shares program goals at 
        the highest level consistent with national policy. High-level, 
        long-term agreements are currently in place ensuring that Air 
        Force's and NASA's unique capabilities are closely coordinated. 
        This close coordination of strategic goals and objectives 
        supports long-term mission planning, provides a significant 
        reduction in potential duplication of effort, and supports the 
        potential identification of specific cooperative initiatives.

  <bullet> Cooperation and collaboration in areas of Mutual Technology 
        Interest encompass scenarios where the agencies share common 
        technology interests but not necessarily common programmatic 
        end goals and are typically technology advancement oriented. In 
        this type of cooperation, Air Force organizations and NASA 
        leverage mutual interests in technology development to pool 
        financial resources, add unique capabilities and/or expertise, 
        and reduce risk by coordinating and sharing results from 
        complementary RDT&E tasks and programs.

  <bullet> The third mechanism for cooperation is Transactional. Here 
        one organization ``purchases'' an expertise or resource from 
        the other organization. In this scenario the providing agency 
        does not necessarily have an interest in the activity being 
        undertaken, only a specialized skill or resource, to include 
        facilities, needed for that program.

    A comprehensive list of each of the areas of NASA and Air Force 
cooperation would fill volumes. I will however highlight just a few of 
the exciting topics we are working on together.

        1. As mentioned above, both NASA and the Air Force have a 
        strong interest in high-speed flight, into the so-called 
        ``hypersonics'' regime of Mach 5 and above. For the Air Force, 
        this is a field that will enable high-speed weapons and 
        eventually better access to space; for NASA, hypersonics is 
        important for the design of reentry craft, as well as launch 
        and eventual civil applications. A key flight test vehicle that 
        will answer many of our questions regarding hypersonic flight 
        is the Air Force's X-51, and we are drawing on NASA expertise 
        to make this program a success. NASA has already flown its own 
        hypersonic craft, the X-43A, which set a record for Mach 10 
        airplane flight in November 2004. But whereas the Air Force's 
        X-51 would have application primarily to weapons systems, the 
        X-43A was a test of a civilian aircraft configuration, fitting 
        well with NASA's mission. Drawing on knowledge that they gained 
        in designing and flying the hypersonic X-43 aircraft, NASA has 
        provided important and valued support to the X-51 program. 
        Personnel from NASA's Langley Research Center have played a 
        principal role in the X-51 design process, including 
        propulsion, aerodynamics, and wind tunnel tests. In fact, 
        because of the unavailability of Air Force facilities, the 
        Langley Research Center has stepped in as the lead X-51 engine 
        test site and has worked tirelessly since last November to 
        ready one of their wind tunnels for that purpose.

        2. NASA is also helping the Air Force with FRESH-FX, an 
        experimental program on the fundamental physics of hypersonic 
        flight. This activity will launch low-cost experiments on 
        sounding rockets under joint funding with the Australian 
        government. The product of this effort will be an 
        ``experimental flight laboratory'' for the evaluation of 
        numerous high-speed flight phenomena and aerospace systems 
        technologies. The scope of this program will include the 
        examination of basic phenomena deemed critical to the eventual 
        development of hypersonic technologies; for example, chemical 
        kinetics and combustion in airbreathing propulsion, 
        aerodynamics, physics of surface flows and shock waves, high 
        temperature effects, integrated adaptive guidance and control 
        systems, sensors, materials and structures, and new 
        instrumentation. An extensive NASA team reaching across five 
        NASA Centers will provide technical guidance, computational 
        support, and experimental validation and consultation. Our NASA 
        partners will perform computational analysis and experimental 
        validation, and will execute both aerodynamic and propulsion 
        tests at NASA Langley, as they are doing now for X-51. Last, 
        NASA personnel from Dryden and Wallops Island will support the 
        flight activities with systems integration and launch 
        operations.

        3. Some of our collaborations are occurring in lower-speed 
        regimes, but are no less exciting. One such effort is the 
        Morphing Wing program, exploring airplanes that can change 
        their shapes in flight to perform better over a wide range of 
        mission objectives. Success in this area may one day produce a 
        single aircraft capable of conducting attack, reconnaissance, 
        and perhaps other types of missions. Rudimentary examples of 
        morphing technology are flying today, including variable-sweep 
        wings of the Navy's F-14 fighter and B-1B bomber, as well as 
        the flaps located on the trailing edge of nearly all military 
        and civilian aircraft wings. Compared to these current 
        examples, future applications of this technology will seem 
        light-years ahead, using so-called smart materials and advanced 
        actuators to produce large-scale changes in shape and wing 
        function. An airplane thus equipped could extend its wings for 
        slow, loitering flight, then fold them up and reshape them for 
        enhanced maneuverability and speed. The military applications 
        are obvious, but much of the expertise to accomplish this 
        resides with the engineers at NASA. And the results may 
        eventually lead to better civilian aircraft as well.

        4. A closely-related program in Active Aeroelastic Wing (AAW) 
        technology is also bringing engineers from NASA and the Air 
        Force together in a multidisciplinary technology that 
        integrates aerodynamics, controls, and structures to maximize 
        aircraft performance. This concept is actually a throwback to 
        the very first airplane: rather than use ailerons or flaps to 
        maneuver their Kitty Hawk Flyer, the Wright Brothers' employed 
        twist or ``warping'' of the wingtips to control its motion. 
        Like that first Wright Brothers' plane, the wings of today's 
        high-speed aircraft also warp or twist at very high speeds. But 
        unlike the Wright Brothers' plane, this high-speed warping is 
        not deliberate, and usually has negative effects. The Air 
        Force, in cooperation with NASA Dryden Flight Research Center 
        and the Boeing Phantom Works, is studying a ``wing warping'' 
        approach to control this twisting for a net benefit. Once this 
        technology is transitioned to operational aircraft, it promises 
        to significantly improve the high-speed roll maneuverability of 
        the aircraft by actively controlling the wing shape.

    These programs and more demonstrate the value of synergy between 
the U.S. Air Force and our colleagues at NASA. Today we are also 
working with NASA to apply airplane concepts that they developed for 
scientific missions, specifically long duration atmospheric sampling, 
to give us long-loitering high-altitude reconnaissance. Because of our 
keen interest in reducing fuel expenses and reliance on foreign fuel 
supplies, the Air Force is working with NASA to identify entirely new 
shapes for airplanes that will be more energy efficient. The result of 
these activities will be concepts for more fuel-efficient airplanes 
that will make for better long-haul airlines or long-range bombers. 
Concern about aircraft maintenance and combat readiness is leading to 
joint activities in sustainment, inspection, and repair. We are also 
working together across the board on the exploration of new materials 
for both military and commercial aircraft and spacecraft. Yet another 
important success story is that NASA and the Air Force are now working 
closely to coordinate our wind tunnel facilities. We want to prevent 
duplication but be certain that the Nation's aerodynamic testing needs 
are properly served.
    Finally, I offer some observations regarding NASA's renewed 
commitment to inter-agency cooperation. Put simply, the Department of 
Defense, and the Air Force in particular, could not have a better 
partner than the present NASA leadership. When Administrator Michael 
Griffin arrived at NASA, he made it very clear that cooperation and 
interaction with the Department of Defense would be a high priority, 
and he has honored this commitment. Dr. Griffin and the Associate 
Administrator for Aeronautics, Dr. Lisa Porter, have been extremely 
enthusiastic about teaming with us and have built a strong working 
relationship. From the Air Force's view, Dr. Porter is rebuilding and 
revitalizing an aeronautics program at NASA that had sadly declined 
over many years. Their efforts are logically conceived and 
intelligently implemented, doing the sorts of things that NASA should 
be doing while recapturing the spark of excitement on the frontiers of 
aeronautics. Dr. Porter has been receptive toward including Department 
of Defense mission goals among the systems applications that NASA's 
foundational research efforts will enable. She has visited DOD 
facilities, included DOD experts in review panels, hosted DOD visitors 
to NASA, and encouraged NASA's workforce to seek expanded ties to their 
colleagues in the Pentagon and the service laboratories. To this end, 
we are in the process right now of ratifying a Memorandum of 
Understanding between the U.S. Air Force and NASA, to formalize and 
codify the close relationship that is already in place.
    As we begin this second century of flight, the United States Air 
Force sees NASA as a valued, indeed critical, partner. Where our 
mission areas are synergistic, we want to pursue logical connections. 
As we expand upon this special relationship, the Air Force appreciates 
the important differences between NASA's mission and ours, as well as 
the special responsibilities that NASA has in preserving and continuing 
America's leadership in aeronautics. Our goal is not to subsume NASA 
under the DOD, nor redirect NASA's work to military-only activities. 
Rather, we seek mutual benefit and intelligent coordination to maximize 
the benefits of our Nation's investments in aeronautics. Together, we 
are greater than our sum.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Dr. Roy B. Torbert

    Question 1. I was struck by several references in your statement to 
student interest and involvement in space sciences research. Would you 
agree that an important reason to consider sustaining this sort of 
research at NASA is to help meet the growing crisis in Science, 
Technology, Engineering and Mathematics education?
    Answer. I believe that this is a major collateral benefit of the 
investment we make in NASA science. The availability of real 
experiences for students is an educational asset like no other.

    Question 2. To what extent do you believe there are opportunities 
for cooperative research between NASA and NSF in the science 
disciplines with which you are familiar?
    Answer. There are may cooperative efforts that are continually 
undertaken at present. NASA and NSF have an arrangement that divides 
the responsibilities between them, that has worked very well, but they 
continue to collaborate where it makes sense.

    Question 3. In your written statement, you make reference to launch 
sites such as Poker Flats, run by the University of Alaska in 
Fairbanks, being threatened by cutbacks in small launch payloads. What 
kind of scientific research is represented by those payloads? Do they 
typically involve students and faculty in the experiments?
    Answer. Poker Flat is the primary remote launch site for the sub-
orbital rocket program that NASA manages out of Wallops Island (part of 
GSFC). It probably has the largest component of student research of any 
effort within NASA. Primarily they do upper atmospheric and ionospheric 
research.

    Question 4. The Space Sciences portion of NASA's budget has 
steadily increased over the past fifteen years to now represent roughly 
33 percent of NASA's total budget. The FY 2007 request slows that 
growth rate to 1.5 percent for FY 2007 and 1 percent per year after 
that. It appears from those facts that Space Science is not being 
``cut'' but that the potential or previously-planned increase has been 
reduced. What do you believe the ideal ratio of space science funding 
should be for NASA in the future?
    Answer. It is correct that the science portion per se has seen an 
increase over the last 5 years, but it is also correct that the number 
and diversity of space science projects has also dramatically decreased 
in the last 5 years, as I make clear in my written testimony. The 
science community is reacting to the huge loss of projects that have 
been planned for a long time. This is the conundrum of increased costs 
that I discussed. I believe that NASA and the science committees must 
really address this dilemma. It will affect even more the financial 
viability of the Vision for Exploration.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                         Dr. Peter W. Voorhees

    Question 1. What are some of the physical science disciplines or 
areas of research that have the highest potential for benefits on 
Earth?
    Answer. The physical science program contains research that spans 
the spectrum from applied to basic. Given the rigorous peer review to 
which the projects have been subjected, it is highly likely that these 
projects will have an impact on the scientific fields of which they are 
part. and hence provide great benefit to the Nation's scientific and 
engineering enterprise.
    It is difficult to predict the impact of basic research. For 
example, NASA invested considerable resources aimed at understanding 
how variations in the surface tension of a liquid-vapor interface can 
lead to flow of the liquid. These projects lead to numerous advances in 
our fundamental understanding of surface tension driven flows. The 
technological impact of this basic research has recently become clear 
in the development of microchips, such as those used in DNA analysis. A 
leading approach to move the fluid through the channels on these chips 
is to use gradients in the liquid-vapor surface tension. The 
understanding of surface tension driven flows fostered by NASA funding 
has been used in the design of these chips. This example shows that 
basic microgravity research can have many unexpected benefits to 
problems of great concern here on Earth. Thus in assessing the 
potential impact of the physical sciences program one cannot neglect 
areas such as the fundamental physics effort with its focus on atomic 
clocks and low temperature physics.
    Many of the programs in the physical sciences directly impact 
issues of concern here on Earth. The need to generate and use energy 
efficiently will be important in sustaining the economic growth that we 
have seen in the past. Many of the areas funded by NASA impact this 
effort. For example, microgravity experiments can be used to quantify 
the chemical kinetics of combustion. This information is critical in 
predicting the behavior of combustion engines used in automobiles and 
aircraft. New materials are needed to reduce the weight of vehicles and 
to increase the operating temperature of turbines that are used for 
propulsion and energy generation. NASA's work on phase formation, 
solidification, and computational materials science will all contribute 
to this effort. Multiphase flow and boiling are important in 
transferring heat from one region to another. NASA's work on multiphase 
flow will provide new understanding of these complex phenomena. Other 
areas where physical sciences research can impact life on Earth is the 
study of the granular flows that are central to many chemical processes 
on Earth. the wetting and spreading of fluids on surfaces that are so 
prevalent in many industrial processes, and understanding the process 
by which soot is produced by jet and diesel engines.

    Question 2. Your prepared statement makes reference to research in 
flame propagation and fire detection and suppression. You describe the 
value of this research for long-duration space flight. What about the 
value of this research right here on Earth? Can it help in controlling 
or preventing such things as forest fires and fires in remote 
locations?
    Answer.The heat generated by combustion on the Earth leads to 
strong convection. In a microgravity environment this convection is 
largely absent. Since this important perturbing effect is not present 
in microgravity, it is possible to study combustion phenomena in 
fundamentally new ways. The understanding that will be developed in 
such studies will unquestionably be central to our ability to detect 
and control fires on Earth.

    Question 3. In what ways do you believe research in the physical 
sciences can enhance U.S. innovation and competitiveness?
    Answer. As has been noted in the ``American Competitiveness 
Initiative'' by the Domestic Policy Council of the Office of Science 
and Technology Policy, innovation and competitiveness are fostered by a 
robust research program in the physical and engineering sciences, 
support for large scale facilities in which unique measurements can be 
made, and training the next generation of scientists and engineers. The 
physical sciences program at NASA contributes to all these goals. NASA 
research in the physical sciences impacts both current and future 
technologies. As mentioned above a future technology, microchips for 
bio and chemical assays, has been impacted by NASA's basic research on 
surface-tension driven flows. Research sponsored by NASA's physical 
sciences program has also impacted current technologies by drastically 
reducing the cost of producing liquid-phase sintered cutting tools, a 
$1.8 billion industry. The International Space Station (ISS) has the 
potential to be a large-scale research facility, similar to the 
Nation's accelerators and synchrotrons. Assuming that the necessary 
facilities, crew time and transport to and from the ISS are available, 
the ISS could function as a facility that eliminates the influence of 
gravity on a wide range of physical processes. As has been outlined in 
many National Research Council studies, this will allow a host of 
unique experiments to be performed from ultra sensitive atomic clocks 
to pattern formation during crystal growth. The vast majority of the 
grants supported by the Physical Sciences Division at NASA were given 
to universities. Thus, prior to the budget cuts in the Physical 
Sciences program, it supported approximately 1,700 graduate and 
undergraduate students. This support not only trained the next 
generation of scientists and engineers that are needed for the Nation 
to remain competitive, but through exposing undergraduates to research 
encouraged them to pursue careers in science and engineering.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
